APPENDIX
A
United States Court of Appeals
opinion

Case: 19-40470

Document: 00515564451

Page: 1

Date Filed: 09/15/2020

tHmteb States Court of Sppeals
for tfjc Jftftf) Ctrtutf

United States Court of Appeals
Fifth Circuit

FILED
August 24, 2020

No. 19-40470

Lyle W. Cayce
Clerk

Christopher Bryan Torres
Plaintiff—Appellant,
versus
Brad Livingston; William Stephens; Kelvin Scott;
Edgar Baker, Jr.; Todd Funai; Frances Sims;
Jonathan Endsley,
Defendants—Appellees.

Appeal from the United States District Court
for the Eastern District of Texas
No. 6:17-CV-196

Before Smith, Willett, and Duncan, Circuit Judges.
Jerry E. Smith, Circuit Judge:
Christopher Torres sued a correctional officer and several staff
members and administrators per 42 U.S.C. § 1983 (and state tort law) for
allegedly failing to protect him from an attack by another inmate in violation
of the Eighth Amendment. The defendants successfully moved to dismiss
for failure to state a claim under Federal Rule of Civil Procedure 12(b)(6).
The district court denied Torres’s motion to alter or amend the judgment
per Federal Rule of Civil Procedure 59(e). We affirm.

Case: 19-40470

Document: 00515564451

Page: 2

Date Filed: 09/15/2020

No. 19-40470

I.
Torres worked as an inmate janitor in an administrative segregation
unit. During mealtimes in that unit, the floor officer—in this case, Jonathan
Endsley—opens a row of seven inmates’ food tray slots in quick succession.
Once the slots are open, the inmate janitor delivers each inmate a food tray.
Inmates often request that officers pass through miscellaneous items, such as
books, newspapers, and magazines. Usually, the officer directs an inmate
janitor to fulfill those requests. After the food trays are distributed, the offi­
cer closes the slots.
While Endsley and Torres were delivering meals, Angel Sanchez, one
of the inmates, requested that Endsley retrieve pictures from the floor out­
side his cell. Endsley directed Torres to pick up the photos. Torres complied
willingly, noting that Sanchez “appeared harmless and asked in the right
tone.” When Torres reached to grab the pictures off the ground, however,
Sanchez stabbed him on the right side of his neck. Torres claims that, as a
result, he has breathing, speech, eating, and drinking problems, continually
has to clear his throat, has a persistent cough, and gets headaches. He alleges
that a neurologist has said that his medical complications are “lifelong” and
“irreparable.”
Torres contends that the district court erred in dismissing his § 1983
claims.1 We review the 12(b)(6) dismissal de novo. Jackson v. CityofHeame,
959 F.3d 194, 200 (5th Cir. 2020). “To plead a constitutional claim under
§ 1983, [Torres] must allege that a state actor violated a constitutional right. ”
Id.
A.
Torres avers that Endsley’s alleged failure to protect his health and

1 Torres does not expressly challenge the dismissal without prejudice of his pen­
dent state-law claims.

2

Case: 19-40470

Document: 00515564451

Page: 3

Date Filed: 09/15/2020

No. 19-40470

safety violated the Eighth Amendment. “The Supreme Court has held that
the treatment a prisoner receives in prison and the conditions under which
he is confined are subject to scrutiny under the Eighth Amendment. ” Cantu
v. Jones, 293 F.3d 839, 844 (5th Cir. 2002). Accordingly, “prison officials
have a duty to protect prisoners from violence at the hands of other pris­
oners.” Id. A prison official may be held liable under the Eighth Amendment
only if he “ha[s] a sufficiently culpable state of mind, which, in prisonconditions cases, is one of ‘deliberate indifference’ to inmate health or
safety.” Id. (quotingFarmer v. Brennan, 511 U.S. 825,834 (1994)).
“Deliberate indifference is an extremely high standard to meet. A
prison official displays deliberate indifference only if he (1) knows that in­
mates face a substantial risk of serious bodily harm and (2) disregards that
risk by failing to take reasonable measures to abate it.” Taylor v. Stevens,
946F.3d 211, 221 (5th Cir. 2019). “Deliberate indifference cannot be in­
ferred merely from a negligent or even a grossly negligent response to a sub­
stantial risk of serious harm. ” Williams v. Banks, 956 F.3d 808,811 (5th Cir.
2020) (brackets omitted).
Torres does not offer any facts suggesting that Endsley knew of and
disregarded a substantial risk to his health and safety. By all accounts, Ends­
ley was unaware that Torres was in danger, and Torres does not allege that
there was anything that would have caused Endsley to foresee that Sanchez
would assault him. In fact, Torres remarked that Sanchez “appeared harm­
less and asked in the right tone” to pick up the pictures. Although Torres
alleges that inmates in administrative segregation have weapons and a history
of attacking people, he provides no specific examples, nor does he point to
any other case in which that was alleged. In sum, Torres failed to allege that
Endsley was negligent, much less that he consciously disregarded any risk of

3

Case: 19-40470

Document: 00515564451

Page: 4

Date Filed: 09/15/2020

No. 19-40470

serious harm.2
B.
Torres also appeals the denial of his Rule 59(e) motion, which we
review for abuse of discretion. Trevino v. City ofFort Worth, 944 F.3d 567,
570 (5th Cir. 2019) (per curiam). “Under Rule 59(e), amending a judgment
is appropriate (1) where there has been an intervening change in the control­
ling law; (2) where the movant presents newly discovered evidence that was
previously unavailable; or (3) to correct a manifest error of law or fact. ”
Demahy v. Schwarz Pharma, Inc., 702 F.3d 177,182 (5th Cir. 2012) (per cur­
iam). “A motion to reconsider based on an alleged discovery of new evi­
dence should be granted only if (1) the facts discovered are of such a nature
that they would probably change the outcome; (2) the facts alleged are actu­
ally newly discovered and could not have been discovered earlier by proper
diligence; and (3) the facts are not merely cumulative or impeaching.” Fer­
raro v. Liberty Mut. Fire Ins. Co., 796 F.3d 529,534 (5th Cir. 2015).
Torres moved to alter or amend the judgment based on the affidavit
of a fellow inmate who claimed to have witnessed at least one food-slot attack
a week, and often more than one a day, over the past fifteen years. Torres
contended that, in light of the history of inmate food-slot attacks, the court
should have concluded that the defendants were subjectively aware of the risk
to Torres but failed to take reasonable measures. The court did not abuse its
discretion in denying that motion. It reasonably found that the inmate’s
claim to have witnessed roughly a thousand food-slot assaults was not credi-

2 Because Torres does not allege facts that amount to a constitutional violation, his
claims of failure to train or supervise, against the other defendants, also necessarily fail. See
Whitley v. Hanna, 726F.3d 631, 648 (5th Cir. 2013) (“All of [the plaintiff's] inadequate
supervision, failure to train, and policy, practice, or custom claims fail without an under­
lying constitutional violation. ”).

4

Case: 19-40470

Document: 00515564451

Page: 5

Date Filed: 09/15/2020

No. 19-40470

ble and that even if it was, it did not demonstrate that the defendants were
aware of a specific danger to Torres. All pending motions are denied as moot.
AFFIRMED.

5

APPENDIX
B
Final Judgment
of the U.S. District Court

' Case 6:17-cv-00196-RC-JDL Document 37 Filed 08/24/18 Page 1 of 1 PagelD #: 259

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
CHRISTOPHER TORRES

§

v.

§

BRAD LIVINGSTON, ET AL.

§

CIVIL ACTION NO. 6:17cvl96

FINAL JUDGMENT
The above-styled civil rights lawsuit having come before the Court for consideration, and
a decision having been duly rendered, it is hereby
ORDERED that the above-entitled and numbered cause of action is DISMISSED WITH
PREJUDICE for failure to state a claim upon which relief may be granted. It is further
ORDERED that any state law claims raised by the Plaintiff are DISMISSED WITHOUT
PREJUDICE to their refiling in state court, with the statute of limitations suspended for 30 days
following the date of entry of final judgment.
So ORDERED and SIGNED August 24, 2018.

Ron Clark, Senior District Judge

<*■

APPENDIX
C
U.S. Magistrate's
Findings and Recommendations

Case 6:17-cv-00196-RC-JDL Document 30 Filed 07/23/18 Page 1 of 18 PagelD #: 212

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
CHRISTOPHER BRYAN TORRES

§

v.

§

BRAD LIVINGSTON, ET AL.

§

CIVIL ACTION NO. 6:17cvl96

REPORT AND RECOMMENDATION
OF THE UNITED STATES MAGISTRATE JUDGE
The Plaintiff Christopher Torres, a prisoner of the Texas Department of Criminal Justice,
Correctional Institutions Division proceeding pro se, filed this civil rights lawsuit under 42 U.S.C.
§1983 complaining of alleged deprivations of his constitutional rights. The lawsuit was referred to
the undersigned United States Magistrate Judge pursuant to 28 U.S.C. §636(b)(l) and (3) and the
Amended Order for the Adoption of Local Rules for the Assignment of Duties to United States
Magistrate Judges. As Defendants, Torres names former TDCJ-CID Director William Stephens,
Regional Director Kelvin Scott, Warden Edgar Baker, Major Todd Funai, Lt. Frances Sims, and
Officer Jonathan Endsley.
I. The Plaintiffs Complaint
The operative pleading is Torres’ second amended complaint filed January 29,2018 (docket
no. 25). In this amended complaint, Torres states that on June 27, 2015, he was working as an
inmate janitor, known as an SSI (support services inmate). He explains that the Michael Unit
administrative segregation building has six pods, known as A through F Pods. Every pod other than
F Pod had two guards per shift, one on the floor and one in the control picket. F Pod sometimes had
two floor officers as well as a picket officer.
Torres states that there were supposed to be six SSI’s on his work shift in charge of cleaning
the pods. He was assigned to F Pod. His duties included sweeping, mopping, and emptying trash
1

Case 6:17-cv-00196-RC-JDL Document 30 Filed 07/23/18 Page 2 of 18 PagelD #: 213

cans. On June 27,2015, he finished helping the floor officer feed the inmates housed on F Pod and
left to get hypercaloric snacks for some diabetic inmates on F Pod. As he passed by D Pod on his
way to the kitchen, Officer Endsley, who was the floor officer for D Pod, asked him to come help
feed the prisoners on D Pod. Torres explains that for some reason, there was no SSI on D Pod that
morning.
Torres states that Officer Endsley did what most of the officers do during feeding time,
explaining this procedure as follows:
Endsley would simply just open the food tray slot door of every cell (one right after
another) on a particular row of seven cells, then he would wait at the end of that row
while I would have to hand each ad. seg. inmate a food tray through their opened
food slot (or just leave it on their opened food slot if they were not at the slot) and
I would have to come back shortly later with a bucketful of drink and pour a cupful
of it into the cups of said ad. seg. inmates who would be holding their cups through
their opened food slot; the food slots of Michael’s ad. seg. cell doors were about five
inches wide by about 1 14 feet long.
Torres goes on to explain that many times, while the food slots were still open, the inmates
would ask the floor officer pass items such as books, newspapers, magazines, photo albums, and
food back and forth between the cells. He states that most of the time, the floor officer would tell
the inmates to “have the SSI do it for you,” so the SSI working there (whether Torres or someone
else) would pass along whatever the inmates requested.
Once the SSI finished passing out the food and drink, and the requested items were passed,
Torres explains that the floor officer would walk by and close all of the food slots. The floor officer
and SSI would then go to the next row of cells and repeat the procedure. No supervisors were
present while feeding was going on, but would come make their rounds after feeding was completed.
Torres states that there was no supervisor present on June 27,2015, when he began helping Officer
Endsley feed D Pod.
After feeding One Row on D Pod, Torres states that he and Officer Endsley proceeded to
Two Row. Officer Endsley was a few steps ahead and Torres saw him open the slot for the cell of
inmate Angel Sanchez. Sanchez reached out through his food slot and pointed to some pictures

2

* '

Case 6:17-cv-00196-RC-JDL Document 30 Filed 07/23/18 Page 3, of 18 PagelD #: 214

laying on the floor just outside of Sanchez’s cell door. He asked Officer Endsley to get the pictures
for him, and Endsley replied “the SSI will get them for you. Ask him.”
Torres states that Officer Endsley went on ahead to open the cell doors. Torres handed
Sanchez his food tray and Sanchez asked him to get the pictures. Torres states that Officer Endsley
had told him to pass items on One Row and he had heard Endsley tell Sanchez to ask Torres to get
the pictures. He also indicates that he “felt sorry for Sanchez because he appeared harmless and
spoke in the right tone.”
Torres states that he reached down and attempted to get the pictures off the floor and
Sanchez stabbed him in the right side of the neck with what appeared to be a two-foot long pole with
a four-inch sharpened barbed-tip nail in it. He felt the nail hit his neck bone and later learned that
the nail went between his carotid artery and jugular vein. He had to be airlifted to the hospital in
Tyler and now has a visible three-inch scar.
Within a week or so, Torres states that he was interviewed by a lady from the Office of the
Inspector General. She told him the only thing he could do was press criminal charges against
Sanchez, which Torres interpreted as meaning that he could not grieve the dangerous working
conditions which had led to the stabbing. During this interview, Torres stated that he could barely
talk because of the stabbing in the neck.
Between June and September of 2015, Torres states that his mind was clouded and at first
he had problems eating and drinking. He has now just about regained his voice back and is able to
eat and drink normally, but he still coughs about every half hour and must constantly clear his throat.
He gets sharp headaches when he coughs and suffers residual headaches between coughing spells.
He has been prescribed medications, but these do not help.
Torres states that when he began work as an SSI, he was never told that TDCJ has policies
on properly feeding inmates in administrative segregation. He was never warned that he could be
attacked through a food slot when the slot was open. He believed that he had to help officers feed
the inmates and there was never any posted rule prohibiting SSI’s from helping the floor officers
3

Case 6:17-cv-00196-RC-JDL Document 30 Filed 07/23/18 Page 4 of 18 PagelD #: 215
*

feed inmates. Neither he nor any other SSI that he knows of ever received a disciplinary case for
helping the floor officers feed the inmates.
Torres further states that Officer Endsley had just begun working in the Michael Unit
administrative segregation building a few weeks before the stabbing. He contends that Officer
Endsley fed in this way because he and other guards are either trained or given tacit authorization
to do so.
According to Torres, he is not the first person to be assaulted through a food tray slot in
administrative segregation. He asserts that the supervisory defendants knew of the risks that such
an assault would take place and indicates that Sanchez was in administrative segregation at the
Michael Unit because he had previously stabbed an officer at the Telford Unit in the eye through
a food slot door. Because the Defendants knew that the possibility of assault posed an excessive risk
of harm, Torres argues that these Defendants were deliberately indifferent to his safety in that they
failed to take measures to guarantee that Torres could not and would not be assaulted by any inmate
confined in administrative segregation while he worked there.
Torres contends that Officer Endsley is actually responsible for the stabbing because Endsley
failed to follow the TDCJ Administrative Segregation Plan, which requires that safety precautions
be followed in serving meals to administrative segregation prisoners. Each supervisor is also
responsible for the stabbing because floor officers had for years done the same things Endsley did,
meaning the supervisors failed to adequately supervise their subordinates to ensure that the
Administrative Segregation Plan was being fully enforced and that these subordinates were properly
trained. Torres also invokes the supplemental jurisdiction of the Court with regard to state law.
claims. He seeks nominal, compensatory, and punitive damages.
II. The Defendants’ Motion to Dismiss
In their motion to dismiss, the Defendants argue that Officer Endsley cannot be held liable
for failing to protect Torres from being stabbed because Endsley was unaware that Torres was in any
kind of danger when he bent to pick up the pictures off the ground. There was nothing apparent in
4

4

'

Case 6:17-cv-00196-RC-JDL Document 30 Filed 07/23/18 Page 5 of 18 PagelD #: 216

the area which posed a general threat to Torres’ safety, nor anything noticeable which would have
caused Endsley to reasonably foresee that Sanchez would assault Torres. Although Torres indicates
that Sanchez was sent to administrative segregation at the Michael Unit for a stabbing carried out
at another unit, the Defendants assert that Torres offers nothing to suggest that Officer Endsley knew
this.
The Defendants state that while prison officials like Officer Endsley should try to prevent
these types of incidents, they cannot prevent all of them. Torres does not indicate that he told
Officer Endsley that he felt unsafe while assisting him. The Defendants assert that Torres’ claims
do not rise to the level of showing that Officer Endsley was deliberately indifferent to his safety.
The Defendants further maintain that Torres failed to show any personal involvement by the
supervisory Defendants. While Torres claims these Defendants had knowledge of persons being
hurt through food slot doors in the past, he does not claim that they had any knowledge pertaining
to this incident. The purpose of food slot doors is to minimize the risks of dangerous encounters
with inmates in administrative segregation, but this does not mean that all dangerous encounters are
preventable. The Defendants assert that the mere knowledge that prison is a dangerous place or that
some inmates may be dangerous is insufficient to demonstrate a particularized knowledge of a
substantial risk of serious harm. They maintain that the failure to follow TDCJ rules and regulations
is not itself a constitutional claim. With regard to the state law claims, the Defendants argue that
the Texas Tort Claims Act does not provide for recovery against individuals employed by the State,
but instead against the governmental unit responsible for allegedly causing the harm. They also
invoke the defense of Eleventh Amendment immunity; however, Torres specifies in his response
that he is suing the Defendants only in their individual capacities.
III. Torres’ Response to the Motion to Dismiss
In his response, Torres sets out the facts and again asserts that he was not the first inmate to
be assaulted through a food slot, a fact which the Defendants knew. He argues that Sanchez stabbed

5

Case 6:17-cv-00196-RC-JDL Document 30 Filed;07/23/18 Page 6 of 18 PagelD #: 217

him because Officer Endsley failed to take unspecified “reasonable measures” to ensure that
Sanchez could not attack Torres.
Torres further asserts that Lt. Sims failed to take reasonable measures to ensure that Sanchez
could not assault him and failed to supervise to subordinates to ensure that the Administrative
Segregation Plan was enforced. He states that Major Funai and Warden Baker failed to take
reasonable measures to ensure that no administrative segregation inmate attacked any SSI, failed to
adequately train and supervise his subordinates, failed to ensure that the safety precautions in the
Administrative Segregation Plan were followed, and allowed officers on his watch to be trained to
feed administrative segregation inmates the way that Endsley did when Torres was stabbed.
Regional Director Kelvin Scott, former TDCJ-CID Director William Stephens, and Executive
Director Brad Livingston failed to take reasonable measures to ensure that no administrative
segregation inmate could attack any SSI during feeding, and failed to adequately train and supervise
their subordinates.
Torres again complains that no staff member ever warned him that he could be assaulted by
an inmate through the food slot in the door or that a policy existed on properly feeding inmates. He
stated that he had seen other SSI’s help feed prisoners and that he signed a document acknowledging
that he had to obey the orders of the guards.
Torres states that he is suing the Defendants only in their individual capacities, meaning the
Eleventh Amendment does not apply. He cites cases regarding liability under state law and asserts
that he has stated a claim upon which relief may be granted because each defendant knew that
inmates in segregation sometimes have weapons in their cells and sometimes attack people through
the food slots. He argues that each of the supervisory defendants helped create the risk through
inadequate supervision of subordinates, failure to train subordinates, and authorizing floor officers
to order SSI inmates to help feed segregated prisoners.
Even though the Defendants argue that Endsley could not have foreseen the stabbing, Torres
maintains that Endsley ordering him to help feed the inmates placed Torres within range of being
6

“ '

Case 6:17-cv-00196-RC-JDL Document 30 Filed 07/23/18 Page 7 of 18 PagelD #: 218

assaulted. He further states that Endsley telling him to pass items for the inmates was not a
reasonable measure to ensure his safety. Torres contends that there was an indicator in place above
Sanchez’s cell door with the letters SA, for “staff assaultive” on it, so there was something which
could have caused Officer Endsley to foresee that Sanchez might assault Torres. He contends that
assaults through food slots are so pervasive as to amount to “a sufficiently imminent danger of
harm.”
IV. Discussion
A. General Standards for Rule 12(b)(6) Motions on Failure to State a Claim
Fed. R. Civ. P. 12(b)(6) allows dismissal if a plaintiff fails “to state a claim upon which relief
may be granted.” In order to survive a Rule 12(b)(6) motion to dismiss, the plaintiff must plead
enough facts to state a claim to relief which is plausible on its face. Severance v. Patterson. 566 F.3d
490, 501 (5th Cir. 2009) (quoting Bell Atlantic Corp. v. Twomblv. 550 U.S. 544, 570, 127 S.Ct.
1955, 167 L.Ed.2d 929 (2007)). The Supreme Court stated that Rule 12(b)(6) must be read in
conjunction with Fed. R. Civ. P. 8(a), which requires “a short and plain statement of the claim
showing that the pleader is entitled to relief.” Id. at 555.
Fed. R. Civ. P. 8(a) does not require “detailed factual allegations but it demands more than
an unadorned, the-defendant-unlawfully-harmed-me accusation.” Ashcroft v. Iqbal. 556 U.S. 662,
677-78, 129 S.Ct. 1937, 173 L.Ed.2d 868 (2009). A pleading offering “labels and conclusions” or
a “formulaic recitation of the elements of a cause of action” will not suffice, nor does a complaint
which provides only naked assertions that are devoid of further factual enhancement. Courts need
not accept legal conclusions as true, and threadbare recitals of the elements of a cause of action,
supported by mere conclusory statements, are not sufficient. Id. at 678.
A plaintiff meets this standard by pleading “factual content that allows the court to draw the
reasonable inference that the defendant is liable for the misconduct alleged.” Id. A complaint may
be dismissed if a plaintiff fails to “nudge [his] claims across the line from conceivable to plausible,”

7

Case 6:17-cv-00196-RC-JDL Document 30 Filed 07/23/18 Page 8 of 18 PagelD #: 219

or if the complaint pleads facts merely consistent with or creating a suspicion of the defendant’s
liability. M.; see also Riosv. City of Del Rio. Tex.. 444 F.3d 417, 421 (5th Cir. 2006).
Pro se plaintiffs are held to a more lenient standard than are lawyers when analyzing a
complaint, but pro se plaintiffs must still plead factual allegations which raise the right to relief
above the speculative level. Chhim v. University of Texas at Austin. 836 F.3d 467, 469 (5th Cir.
2016). “The plausibility standard is not akin to a ‘probability requirement,’ but it asks for more than
a sheer possibility that a defendant has acted unlawfully.” Iqbal. 556 U.S. at 678.
If the facts alleged in a complaint do not permit the court to infer more than the mere
possibility of misconduct, a plaintiff has not shown entitlement to relief. Id. (citing Fed. R. Civ. P.
8(a)(2)). Dismissal is proper if a complaint lacks a factual allegation regarding any required element
necessary to obtain relief. Rios. 444 F.3d at 421.
B. Cruel and Unusual Punishment
The Eighth Amendment’s prohibition against cruel and unusual punishment imposes upon
prison officials a duty to protect prisoners from violence at the hands of other inmates. Cantu v.
Jones. 293 F.3d 839, 844 (5th Cir. 2002). However, prison officials are not expected to prevent all
inmate-on-inmate violence; rather, they can be held liable for their failure to protect an inmate only
when they are deliberately indifferent to a substantial risk of serious harm. Farmer v. Brennan. 511
U.S. 825, 837, 114 S.Ct. 1970, 128 L.Ed.2d 811 (1994).
A prison official is deliberately indifferent if he knows of an excessive risk to inmate health
or safety and disregards that risk. The official “knows of’ the risk only if he is aware of facts from
which he can infer the existence of a substantial risk of harm, and he in fact draws the inference.
Id. at 839-40.
In Adames v. Perez. 331 F.3d 508, 513 (5th Cir. 2003), the plaintiff Ciro Cid Adames, a
TDCJ prisoner, was placed in administrative segregation because of his affiliation with a gang called
the Texas Syndicate. He began to have second thought about his membership in the gang and

8

'

4 '

Case 6:17-cv-00196-RC-JDL Document 30 Filed 07/23/18 Page 9 of 18 PagelD #: 220

informed Captain Richard Crites about some illegal activities of the gang. A few weeks later,
Adames was assaulted by a member of the Texas Syndicate.
On the day of the attack, Adames was handcuffed and taken to his cell from the shower by
Officer Villareal. Officer Garcia stood by the cell preparing to open the door. Before Adames and
Villareal could proceed to the cell, they were attacked by inmate Jesse Lopez, who had escaped from
his cell. Lopez stabbed Adames some 13 times before complying with the officers’ orders to stop.
Adames later sued Villareal, Garcia, Crites, and two wardens, Perez and Boothe. The case
went to trial, and the jury found Villareal and Garcia not liable; however, they determined Crites,
Perez, and Boothe were responsible for failing to protect Adames.
On appeal, the officials argued the evidence was insufficient to support the jury’s verdict.
Because no post-verdict motion for judgment as a matter of law challenging the sufficiency of the
evidence had been filed, this claim was reviewed on appeal only for plain error. Delano-Pvle v.
Victoria County, Texas. 302 F.3d 567. 573-74 (5th Cir. 2002).
The Fifth Circuit determined that: (1) the existence of other incidents of inmate escapes from
cells, in which the named defendants were not involved, did not show the problem of such escapes
was so pervasive the defendants must have known of the danger; (2) evidence indicating some
correctional officials were not following proper procedures did not impute liability to the captain
or the wardens; (3) evidence showing Adames was labeled in his prison file as a “potential victim”
did not impute liability because this designation only meant Adames had at some point been
involved in an altercation with another prisoner, which would not lead a prison official to conclude
the prisoner was at a substantial risk of serious harm in the future; (4) evidence showing Boothe had
received e-mail messages about inmates at other units who had escaped from their cells did not
cause him to conclude inmates at the McConnell Unit were in any danger, even if this evidence
should have caused Boothe to so conclude; and, (5) Captain Crites was not deliberately indifferent
to Adames’ safety absent a showing he was aware of facts from which he could infer other members
of the Texas Syndicate had learned of the conversation between Crites and Adames. Because there
9

Case 6:17-cv-00196-RC-JDL Document 30 Filed 07/23/18 Page 10 of 18 PagelD #: 221

was no evidence the prison officials were subjectively aware Adames faced a substantial risk of
serious harm, the Fifth Circuit vacated the judgment in Adames’ favor and remanded for a new trial.
In the same way, the fact that other prisoners may have carried out assaults through their
food slot doors, in which none of the named Defendants had any personal involvement, does not
itself show that the problem was so pervasive that the Defendants must have known of the danger.
Research has not uncovered a single other case in the State of Texas in which a prisoner brought suit
complaining that another inmate assaulted him through the food slot.
In Prado v. Grounds, civil action no. 5:14cvl30, the plaintiff and another SSI were assisting
an officer in feeding administrative segregation inmates at the Telford Unit. An administratively
segregated prisoner ran off of the recreation yard without being handcuffed, took a steel slot bar off
of a food storage cart, and assaulted the plaintiff from behind, knocking him unconscious. Other
officers told the plaintiff he had fallen, but he later learned from his inmate co-worker what had
actually happened.
The plaintiff brought suit against the warden and the two picket officers who had allegedly
opened the recreation yard gate, allowing the assailant to leave the recreation yard unrestrained.
They then opened the assailant’s cell door, allowing him to run back into his cell after the assault.
He claimed that the Telford Unit officers had an illegal custom, policy or practice of permitting
administratively segregated inmates to walk unescorted and unrestrained from the recreation yard
back to their assigned cells.
The Court determined that the plaintiffs claim against the warden lacked merit because he
failed to show any policy or custom implemented by the warden under which unconstitutional
practices occurred. Although the plaintiff argued that a custom or policy existed permitting
segregated inmates to walk without escort from the yard back to their cells, he offered nothing to
show that the warden knew of or implemented such a policy in violation of prison regulations. The
Court also determined that the plaintiff s claims of failure to train or supervise were wholly
conclusory.
10

'

4 '

Case 6:17-cv-00196-RC-JDL Document 30 Filed 07/23/18 Page 11 of 18 PagelD #: 222

With regard to the picket officers, the . Court cited Adames v. Perez and stated that the
plaintiff had offered no factual basis upon which to conclude that these officers knew of and
disregarded a substantial risk to his health or safety. Instead, the allegations did not rise above the
level of negligence, which is not sufficient to set out a constitutional claim.
C. Officer Endslev
Torres has offered nothing to suggest that Officer Endsley knew of and disregarded a
substantial risk to his health and safety. Even assuming that Officer Endsley was aware from a
designator on the cell that Sanchez was staff assaultive, this still does not show deliberate
indifference in the mere fact that Endsley had Torres give Sanchez a tray offood or that Endsley told
Sanchez to ask Torres to pick up the pictures in front of his cell.1
Torres complains that Officer Endsley did not follow unspecified “safety precautions”
pursuant to Post Order 07.006, as set out in the TDCJ Administrative Directive Plan, but does not
identify what procedures he believes Officer Endsley was required to follow but did not.2 Nor has
he demonstrated that any such failure to follow these procedures amounted to deliberate indifference
to his safety rather than negligence. Dorsey v. Rubiola. civil action no. 5:09cvl2, 2009 WL
3834048 (S.D.Miss., Nov. 16, 2009) (mere negligence in failing to protect a prisoner from assault,
knowledge of isolated incidents, or failure to follow standard procedures do not form the basis of
a deliberate indifference - failure to protect claim), citing Hill v. Thomas. 326 F.App’x 736, 2009
WL 1181504 (5th Cir., May 1, 2009); accord, Adames. 331 F.3d at 512.

1 Although Torres complains that no officer ever told him that he could be assaulted through
the food slot, he concedes that he saw Sanchez reach “his whole arm” out of the slot.
2Post Order 07.006 concerns policies and procedures for administrative segregation officers,
including feeding meals. The Post Order is not in any pleadings in this case and the Court therefore
does not consider it for any purpose in determining the Defendants’ motion to dismiss. However,
the Court.notes in passing that the feeding procedures set out in the Post Order specifically provide
for and do not prohibit the use of inmate workers serving food. See Post Order 07.006, Exhibit J to
Plaintiffs Motion for Summary Judgment (docket no. 48-3, p. 35) in Flores v. Trevino, civil action
no. 2:13cv298 (S.D.Tex., motion filed September 26, 2014).
11

Case 6:l7-cv-00196-RC-JDU Document 30 Filed 07/23/18 Page 12 of 18 PagelD #: 223

By way of contrast, in Rodriguez v. Lozano. 108 F.App’x 823, 2004 U.S. App. LEXIS
11929, 2004 WL 1367514 (5th Cir., June 17, 2004), inmate Raul Rodriguez awakened to find his
cell door open. When he stepped out, he was confronted by three or four other inmates, who
dragged him into his cell, closed the door, and assaulted him. His assailants left the cell, but twice
returned to beat him further.

Rodriguez offered evidence, including affidavits from inmate

witnesses, stating the picket officer opened his cell door to allow the assailants to enter and knew
the inmates were attacking him, but did nothing. On appeal, the Fifth Circuit affirmed the denial
of the picket officer’s motion for summary judgment. See also Horton v. Cockrell. 70 F.3d 397,401
(5th Cir. 1995) (deliberate indifference found where no action taken after inmate Horton repeatedly
complained that inmate Jackson had threatened him several times, approached him in an assaultive
manner, assaulted another inmate, and attempted to start a race riot).
Unlike Rodriguez, Torres offers no factual basis to suggest that Officer Endsley had actual
knowledge of but disregarded a substantial risk to his health or safety. The Fifth Circuit has made
clear that conclusory allegations of deliberate indifference are not sufficient to overcome a motion
to dismiss or motion for judgment on the pleadings. See Tavlor v. Books A Million. Inc.. 296 F.3d
376,378 (5th Cir, 2002); Oliva v. Rupert. 555 F.App’x 287,2014 U.S. App. LEXIS 1490,2014 WL
278428 (5th Cir., January 24,2014), citing Fernandez-Montes v. Allied Pilots Ass’n. 987 F.2d 278,
284 (5th Cir. 1993).
Instead, Torres’ allegations at best do not rise above the level of negligence, which does not
set out a constitutional claim. A prison guard violates a prisoner’s Eighth Amendment right to be
free from cruel and unusual punishment only if he is deliberately indifferent in protecting a prisoner
from other inmates. Marble v. Padilla-Vasquez. 3 F.3d 439, 1993 U.S. App. LEXIS 39015, 1993
WL 347207 (5th Cir., August 19, 1993), citing Wilson v. Seiter. 501 U.S. 294, 297-98, 111 S.Ct.
2321, 115 L.Ed.2d 271 (1991). Torres has failed to make such a showing.
Even if Torres could demonstrate that Officer Endsley violated TDCJ rules and regulations,
such as by asking him to pass items for the administratively segregated inmates, this does not by
12

" ' Case 6:17-cv-00196-RC-JDL Doeument'30 Filed 07/23/18 Page 13 of 18 PagelD #: 224

itself show deliberate indifference to his safety. Pavne v. Collins. 986 F.Supp. 1036,1062(E.D.Tex.
1997); Mvers v. Klevenhagen. 97 F,3d 91, 94 (5th Cir. 1996). Because Torres’ pleadings fall short
of stating a deliberate indifference claim against Officer Endsley, his claim against Officer Endsley
should be dismissed.
D. The Supervisory Defendants at the Unit
Torres names Lt. Sims, Major Funai, and Warden Berger as supervisory defendants at the
Michael Unit at the time the incident occurred. He asserts that these defendants (1) failed to take
unspecified “reasonable measures” to ensure that Sanchez could not attack Torres; (2) failed to
adequately supervise their subordinates to ensure that the Administrative Segregation Plan was
enforced; (3) failed to properly train the guards to take reasonable measures such as following safety
precautions when serving meals to ensure that no segregated inmate attacked an SSI; (4) allowed
guards to be trained to feed segregated inmates the way that Endsley was doing when Torres was
attacked; and (5) tacitly authorized guards to feed administratively segregated inmates the way
Endsley was feeding them when Torres was attacked.
In order to hold a supervisor liable on a theory of failure to train or supervise, the plaintiff
must show (1) the supervisor either failed to train or supervise the subordinate official; (2) a causal
link exists between the failure to train or supervise and the violation of the plaintiffs rights; and (3)
the failure to train or supervise amounts to deliberate indifference. Smith v. Brenoettsv. 158 F.3d
908, 911-12 (5th Cir. 1998). A showing of deliberate indifference normally requires the plaintiff
to demonstrate a pattern of similar violations and that the failure to train reflects a deliberate or
conscious choice to endanger constitutional rights. Estate of Davis ex rel. McCullv v. City of North
Richland Hills. 406 F.3d 375, 383 (5th Cir. 2005).
In order for liability to attach on a claim of inadequate training, the plaintiff must allege with
specificity how a particular training program is defective. Roberts v. City of Shreveport. 397 F.3d
287,293 (5th Cir. 2005). Torres has wholly failed to do so. Instead, he simply points to an oblique
line in TDCJ Administrative Directive 03.50 reading “safety precautions shall be followed in serving
13

Case 6:17-cv-00196-RC-JDL Document 30 Filed'07/23/18 Page 14 of 18 PagelD #: 225

meals [to administratively segregated prisoners] pursuant to PO-07.006, ‘Administrative Segregation
Officer.’” He does not specify what safety precautions-he believes could or should have been
followed, much less shown that failure to do so amounted to deliberate indifference.
The fact that an assault occurred is not itself proof of inadequacy of training or that
appropriate safety precautions were not followed. Id. (noting that “mere proof that the injury could
have been prevented if the officer had received better or additional training cannot, without more,
support liability.”)
Likewise, in the context of a claim of failure to supervise, a plaintiff must show an actual
failure to supervise, a causal link between this failure and an alleged constitutional violation, and
that the failure to supervise amounts to deliberate indifference. Proof of deliberate difference
requires the showing of a pattern of similar violations arising from training that is so clearly
inadequate as to be obviously likely to result in a constitutional violation. Brown v. Callahan. 623
F.3d 249, 255 (5th Cir. 2010), citins Estate of Davis. 406 F.3d at 381-82: Roberts. 397 F.3d at 292.
Torres’ conclusory assertion that a pattern existed is insufficient to set out a deliberate indifference
claim. See, e.g., Peterson v. City of Fort Worth. Texas. 588 F.3d 838, 851 and n.4 (5 th Cir. 2009)
(27 complaints of excessive force over four years in Fort Worth was not sufficient to establish a
pattern); Pineda v. City of Houston. 291 F.3d 325, 329 (5th Cir. 2002) (11 incidents of warrantless
searches in Houston was not sufficient to establish a pattern).
Torres’ pleadings fail to adequately allege either an actual failure to train or supervise or that
any such failure amounted to deliberate indifference. Nor does he identify any “reasonable safety
precautions” which these Defendants were deliberately indifferent for failing to implement. Torres
offers nothing but conclusions to suggest that Officer Endsley was not following proper feeding
procedures, much less that Lt. Sims, Major Funai, or Warden Baker were aware of or deliberately
indifferent to any such improprieties. His allegations against Lt. Sims, Major Funai, and Warden
Baker fail to state a claim upon which relief may be granted,

14

" 1 Case 6:17-cv-00196-RC-JDL Document 30 Filed 07/23/18 Page 15 of 18 PagelD #: 226

E. The Regional. Division, and Executive Directors
In his response to the motion to dismiss, Torres contends that Regional Director Kelvin
Scott, former TDC J-CID Director William Stephens, and TDC J Executive Director Brad Livingston
failed to take reasonable measures to ensure that no administratively segregated prisoner could
attack an SSI inmate while being fed, failed to adequately supervise their subordinates to ensure that
the Administrative Segregation Plan was being enforced as to meals, failed to have guards properly
trained to take reasonable measures such as following the safety precautions of the Administrative
Segregation Plan and Post Order 07.006, allowed guards to be trained to serve meals in the way that
Officer Endsley did, and tacitly authorized their subordinates to feed meals in the way that Officer
Endsley did.
As with the unit supervisors, Torres’ pleadings fail to state a claim upon which relief may
be granted for failure to train or supervise against the Regional Director, the former TDCJ-CID
Director, and the TDCJ Executive Director. See also Zamow v. City of Wichita Falls. Texas. 614
F.3d 161 (5th Cir. 2010) (the misconduct of the subordinate must be conclusively linked to the
action or inaction of the supervisor, and the supervisory actor must have shown deliberate
indifference by disregarding a known consequence of his action or inaction); Spillerv. City of Texas
City Police Department. 130 F.3d 162,167 (5th Cir. 1997) (conclusory allegations of failure to train
or supervise do not give rise to §1983 liability).
Torres does not state what reasonable measures or precautions he believes these Defendants
were deliberately indifferent for failing to implement, Nor are his allegations sufficient to state a
claim for deliberate indifference against these Defendants with regard to tacit authorization for the
feeding procedures used by Officer Endsley. The Fifth Circuit has explained that deliberate
indifference requires a showing of more than negligence or even gross negligence, and actions by
officials that are merely “inept, erroneous, ineffective, or negligent” do not amount to deliberate
indifference. Estate of Davis. 496 F.3d at 382.

15

Case 6:17-cv-00196-RC-JDL Document 30 Fil£d 07/23/18 Page 16 of 18 PagelD #: 227

In addition, Torres failed to show that Officer Endsley committed a constitutional violation.
The Fifth Circuit has held that a failure to train or supervise claim requires an underlying
constitutional violation. Kitchen v. Dallas County, Texas. 759 F.3d 468,483 (5th Cir. 20141; Gibbs
v. King. 779 F.2d 1040, 1046 n.6 (5th Cir.), cert, denied, 476 U.S. 1117 (1986) (there can be no
supervisory liability absent primary liability). Torres has failed to state a claim upon which relief
may be granted against Officer Endsley or any of the supervisory Defendants.
V. State Law Claims
In his second amended complaint, Torres invokes the supplemental jurisdiction of the court
over his state law claims. The doctrine of supplemental jurisdiction, formerly known as pendent
jurisdiction, codified in 28 U.S.C. §1367, provides in relevant part that where a federal district court
has original jurisdiction, that court shall have supplemental jurisdiction over all other claims that are
so related to claims in the action within such original jurisdiction that they form part of the same
case or controversy. Flowever, the district court may decline to exercise supplemental jurisdiction
if the court has dismissed all claims over which it has original jurisdiction.
The Fifth Circuit has explained that under this statute, where the district court has dismissed
all federal claims before trial, the general rule is to dismiss any pendent claims. Bass v. Parkwood
Hospital. 180F.3d234,246(5thCir. 1999). All of Torres’federal claims are amenable to dismissal;
thus, the district court should decline to exercise supplemental jurisdiction over his state law claims
of negligence and dismiss these claims without prejudice, tolling the statute of limitations during
the pendency of the claims and for 30 days after it is dismissed, as provided in 28 U.S.C. § 1367(d).
See Jinks v. Richland Countv. S.C.. 538 U.S. 456, 461, 123 S.Ct. 1667, 155 L.Ed.2d 631 (2003)
(upholding tolling provision for state law claims originally brought in federal court).
VI. Conclusion
In proceeding under Fed. R. Civ. P. 12(b)(6), a plaintiff with an arguable claim is ordinarily
accorded notice of a pending motion to dismiss for failure to state a claim and an opportunity to
amend the complaint before the motion is ruled upon. These procedures alert him to the legal theory
16

’ '

* ' Case 6:17-cv-00196-RC-JDL Document 30 Filed 07/23/18 Page 17 Of 18 PagelD #: 228

underlying the defendants' challenge, and enable him meaningfully to respond by opposing the
motion to dismiss on legal grounds or by clarifying his factual allegations so as to conform with the
requirements of a valid cause of action. This adversarial process also crystallizes the pertinent issues
and facilitates appellate review of a trial court dismissal by creating a more complete record of a
case. Neitzke v. Williams. 490 U.S. 319, 329-30, 109 S.Ct. 1827, 104 L.Ed.2d 338 (1989).
Torres was given a meaningful opportunity to respond by the Defendants’ motion to dismiss,
giving him the chance to reply to this motion or to amend his complaint. He filed a lengthy and
detailed reply which the Court has carefully reviewed. Viewing Torres’ pleadings with the liberality
befitting his pro se status and taking his factual and non-conclusory allegations as true, Torres has
failed to state a claim upon which relief may be granted because he has not set out sufficient factual
matter, accepted as true, to state a claim for relief which is plausible on its face. Iqbal, 556 U.S. at
678. The Defendants’ amended motion to dismiss should be granted.
RECOMMENDATION
It is accordingly recommended that the Defendants’ amended motion to dismiss (docket no.
26) be granted and the above-styled civil action dismissed with prejudice for failure to state a claim
upon which relief may be granted. Fed. R. Civ. P. 12(b)(6). Torres’ state law claims should be
dismissed without prejudice to his right to proceed on these claims in state court, with the statute
of limitations suspended on these claims for 30 days following the date of entry of final judgment.
28 U.S.C. §1367(d).
A copy of these findings, conclusions and recommendations shall be served on all parties in
the manner provided by law. Any party who objects to any part of these findings, conclusions, and
recommendations must file specific written objections within 14 days after being served with a copy.
In order to be specific, an objection must identify the specific finding or recommendation to which
objection is made, state the basis for the objection, and specify the place in the Magistrate Judge’s
proposed findings, conclusions, and recommendation where the disputed determination is found.
17

Case 6:17-cv-00196-RC-JDL Document 30 Filed 07/23/18 Page 18 of 18 PagelD #: 229 '

An objection which merely incorporates by reference or refers to the briefing before the Magistrate
Judge is not specific, and the district court need not consider frivolous, conclusive, or general
objections. See Battle v. United States Parole Commission. 834 F.2d 419, 421 (5th Cir. 1987).
Failure to file specific written objections will bar the objecting party from appealing the
factual findings and legal conclusions of the Magistrate Judge that are accepted and adopted by the
district court except upon grounds of plain error. Douglass v. United Services Automobile
Association. 79 F.3d 1415, 1430 (5th Cir. 1996) (en banc).

So ORDERED and SIGNED this 23rd day of July, 2018.

UNITED STATES MAGISTRATE JUDGE

18

f .

#
4

APPENDIX
D
V.

\

United States Court of Appeals'
denial on petition for panel rehearing

Case: 19-40470

Document: 00515570106

Page: 1

Date Filed: 09/18/2020

tHmteti States Court of Appeals:
for tf)t Jftftl) Ctrtutt
No. 19-40470

Christopher Bryan Torres,
Plaintiff—Appellant,
versus
Brad Livingston; William Stephens; Kelvin Scott;
Edgar Baker, Jr.; Todd Funai; Frances Sims;
Jonathan Endsley,
Defendants—Appellees.

Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 6:17-CV-196

ON PETITION FOR REHEARING
Before Smith, Willett, and Duncan, Circuit Judges.
Per Curiam:
IT IS ORDERED that the petition for rehearing is DENIED.

APPENDIX
E
U.S. District Judge's
Memorandum

Case 6:17-cv-00196-RC-JDL Document 36 Filed 08/24/18 Page 1 of 10 PagelD #: 249

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
CHRISTOPHER TORRES

§

v.

§

BRAD LIVINGSTON, ET AL.

§

CIVIL ACTION NO. 6:17cvl96

MEMORANDUM ADOPTING REPORT AND RECOMMENDATION
OF THE UNITED STATES MAGISTRATE JUDGE
AND ENTERING FINAL JUDGMENT
The Plaintiff Christopher Torres, an inmate of the Texas Department of Criminal Justice,
Correctional Institutions Division proceeding pro se, filed this civil rights lawsuit under 42 U.S.C.
§1983 complaining of alleged violations of his constitutional rights. This Court referred the case
to the United States Magistrate Judge pursuant to 28 U.S.C. §636(b)(l) and (3) and the Amended
Order for the Adoption of Local Rules for the Assignment of Duties to United States Magistrate
Judges. The named Defendants are former TDCJ-CID Director William Stephens, Regional
Director Kelvin Scott, Warden Edgar Baker, Major Todd Funai, Lt. Frances Sims, and Officer
Jonathan Endsley.
I. Background
Torres states that he was a support services inmate (SSL) at the Michael Unit, working in the
administrative segregation department. He explains that on the day in question, June 27,2015, there
were supposed to be six SSI’s on his work shift, with one assigned to each pod, A through F.
Torres states that he was assigned to work on F Pod that day. After he finished helping the
floor officer feed the inmates, he left to get some hypercaloric snacks for the diabetic inmates on the
pod. As he passed by D Pod on his way to the kitchen, Officer Endsley asked him to come help feed
the inmates on that pod because there was no SSI on D Pod that morning.

1

Case 6:17-cv-00196-RCtJDL Document 36 Filed 08/24/18 Page 2 of 10 PagelD #: 250

According to Torres, Officer Endsley did what most of the officers do doing feeding time.
He stated that Endsley would open the food tray slot in the door of each cell, one right after the
other, and then wait at the end of the row. The SSI would hand each prisoner a food tray through
the opened food slot, or leave it on the slot door if the prisoner was not at the slot. The SSI would
then come back and pour drinks as the inmates held their cups out of the food slot. Torres states that
the food slot is about five inches wide by 18 inches long.
While the food slots were open, Torres states that the prisoners would often ask the floor
officer to pass items such as books, newspapers, magazines, photo albums, or food back and forth
between' the cells. When this happened, he asserts that the floor officer would normally tell the
prisoners to have the SSI do it for them, so the SSI working on the floor would pass along whatever
the prisoners requested.
Once the food and drink was given out and all of the requested items were passed, Torres
states that the floor officer would walk by and close all of the food slots. The floor officer and the
SSI would then go to the next row of cells and repeat the procedure. Torres states that the
supervisors were not present during feeding, but would come make rounds afterwards. There was
no supervisor present on June 27, 2015, when he began helping Officer Endsley feed D Pod.
On that date, Torres states that he and Officer Endsley fed One Row and went up to Two
Row. Officer Endsley opened the food slot for an inmate named Angel Sanchez. Sanchez reached
out of the slot and pointed to some pictures on the floor outside of his cell, asking Officer Endsley
to get them for him. Officer Endsley replied “the SSI will get them for you. Ask him.”
Torres states that he handed Sanchez his food tray and Sanchez asked him to get the pictures.
When he reached down to get them, Torres states that Sanchez stabbed him in the neck with what
appeared to be a two-foot long pole with a four-inch sharpened nail in it. As a result, he had to be
airlifted to the hospital in Tyler.

2

Case 6:17-cv-00196-RC-JDL Document 36 Filed 08/24/18 Page 3 of 10 PagelD #: 251

Between June and September of 2015, Torres asserted that his mind was clouded and he had
problems eating and drinking at first. He stated he has almost regained his voice back but still
coughs every half hour and must constantly clear his throat, resulting in severe headaches.
Torres contended that when he began work as an SSI, he was never told that TDCJ-CID has
policies on properly feeding inmates in administrative segregation, nor that he could be attacked
through a food slot when it was open. He stated that he believed he had to help officers feed the
prisoners and there was never any posted rule prohibiting SSI’s from helping officers feed the
inmates.
According to Torres, Officer Endsley had just started working in the Michael Unit
administrative segregation area a few weeks earlier and fed the prisoners in this manner because
Endsley and other guards are trained or authorized to do so. Torres stated that he is not the first
person to be assaulted through a food slot in administrative segregation and that the supervisory
prison officials knew of the risks that such an assault would take place. Furthermore, Torres claimed
that Sanchez was in administrative segregation for having stabbed an officer through a food slot
door. He argued that the Defendants knew of an excessive risk of harm and thus were deliberately
indifferent to his safety in that they failed to take measures to guarantee that Torres could not and
would not be assaulted by any prisoner in administrative segregation while he worked there.
Torres further maintained that Officer Endsley was responsible for the stabbing because the
officer failed to follow the TDCJ Administrative Segregation Plan, which requires that unspecified
“safety precautions” be followed in serving meals to prisoners. He asserted that each supervisor is
also liable because the floor officers had followed the same procedures for years, meaning the
supervisors failed to adequately supervise their subordinates to ensure that the Administrative
Segregation Plan was being followed and that the subordinates were properly trained.
For relief, Torres sought nominal, compensatory, and punitive damages. He also invoked
the supplemental jurisdiction of the Court for state law claims.

3

Case 6:T7-cv-00196-RC-JDL Document 36 Filed 08/24/18 Page 4 of 10 PagelD #: 252'

II. The Defendants’ Motion to Dismiss
The Defendants filed a motion to dismiss under Fed. R. Civ. P. 12(b)(6) arguing the stabbing
was not foreseeable and Officer Endsley was unaware that Torres was in any sort of danger. The
Defendants further contend that Torres failed to show any personal involvement by the supervisory
officials and that the mere knowledge that prison is a dangerous place is insufficient to demonstrate
a particularized knowledge of a substantial risk of serious harm. Finally, the Defendants argued that
the Texas Tort Claims Act does not provide for recovery by the individuals employed by the State
but against the governmental unit responsible for the harm.
III. Torres’ Response to the Motion to Dismiss
Torres filed a response setting out the facts and again arguing that he was not the first inmate
to be stabbed through a food slot. He asserted that Sanchez stabbed him because Officer Endsley
refused to take unspecified “reasonable measures” to protect him. Torres stated that the fact Officer
Endsley ordered him to help feed inmates placed him within range of being stabbed and that Officer
Endsley telling him to pass items for inmates was not a reasonable measure to ensure his safety. He
stated that there was an indicator above Sanchez’s door reading “S.A.,” for “staff assaultive.”
Torres further insisted that the supervisory officials failed to take reasonable measures to
ensure that Sanchez could not stab him and that they failed to adequately train and supervise their
subordinates or to ensure that the Administrative Segregation Plan was followed. He complained
that no staff member had ever warned him that he could be assaulted through a food slot or that a
policy existed on properly feeding inmates. Torres argued that assaults through food slots are so
pervasive as to amount to a sufficiently imminent danger of harm, though he offered nothing to
substantiate this claim.
IV. The Report of the Magistrate Judge
The Magistrate Judge set out the facts of the case and the legal standards applicable to Rule
12(b)(6) motions to dismiss. In order to survive a motion to dismiss, the Magistrate Judge said, a
plaintiff must plead factual content which allows the court to draw the reasonable inference that the
4

Case 6:17-cv-00196-RC-JDL Document 36 Filed 08/24/18 Page 5 of 10 Page ID #: 253

defendant is liable for the misconduct alleged and which raises the right to relief above the
speculative level. Ashcroftv. Iqbal, 556 U.S. 662,677-78,129 S.Ct. 1937,173 L.Ed.2d 868 (2009).
Thus, there must be more than a sheer possibility that the defendant acted unlawfully. Id. at 678.
Conclusions and naked assertions devoid of further factual enhancement are not sufficient. Id.; see
also Severance v. Patterson, 566 F.3d 490, 501 (5th Cir. 2009).
The Magistrate Judge further stated that prison officials can be held liable for their failure
to protect an inmate from injury only if they are deliberately indifferent to a substantial risk of
serious harm. Farmer v. Brennan, 511 U.S. 825, 837, 114 S.Ct. 1970, 128 L.Ed.2d 811 (1994). A
prison official is deliberately indifferent if he knows of an excessive risk to inmate health or safety
and disregards that risk. The official “knows of’ the risk only if he is aware of facts from which he
can infer the existence of a substantial risk of harm, and he in fact draws the inference. A showing
that the official should have perceived the risk but did not is not sufficient. Id. at 839-40.
The Magistrate Judge looked to Adames v. Perez, 331 F.3d 508, 513 (5th Cir. 2003), in
which a Texas prisoner was assaulted by another inmate who had escaped from his cell. A jury
found in the prisoner’s favor against some of the defendants, but the Fifth Circuit vacated this
judgment and remanded for a new trial. In so doing, the Fifth Circuit determined that the existence
of other incidents in which prisoners had escaped from their cells, in which the named defendants
were not involved, did not show that the problem of such escapes was so pervasive that the
defendants must have known of the danger.
The Magistrate Judge determined Torres’ pleadings did not set out a claim of deliberate
indifference against Officer Endsley because the Plaintiff offered nothing to suggest that Endsley
knew of and disregarded a substantial risk to Torres’ health or safety. Likewise, the Magistrate
Judge concluded that Torres’ pleadings failed to adequately allege either an actual failure to train
or supervise or that any such failure amounted to deliberate indifference. The Magistrate Judge
observed that Torres did not state what reasonable means or precautions he believed the supervisory
Defendants should have implemented and that in the absence of a showing that Officer Endsley
5

Case 6:17-cv-00196-RC-JDL Document 36 Filed 08/24/18 Page 6 of 10 PagelD #: 254

committed a constitutional violation, Torres cannot sustain a claim of supervisory liability. With
regard to Torres’ state law claims, the Magistrate Judge stated that because Torres had not set out
a viable claim under federal law, the district court should decline to exercise supplemental
jurisdiction over the state law claims. The Magistrate Judge thus recommended that the Defendants’
motion to dismiss be granted and that the lawsuit be dismissed.
V. Torres’ Objections to the Report
In his objections, Torres first points to a number of alleged discrepancies between his
allegations and the summary of these, allegations in the Magistrate Judge’s Report, including, for
example, the fact that while the Magistrate Judge had stated that “the floor officer would walk by
and close all the food slots,” Torres had alleged that the floor officer would “quickly come by and
quickly close every food slot one right after another.” A review of the pleadings shows that the
Magistrate Judge adequately summarized Torres’ allegations and the purported discrepancies to
which Torres points are not so significant as to warrant rejecting the Report.
Torres asserts that it is long-standing, pervasive, and well-documented that inmates have
weapons in their cells and attack people through the food slots, pointing to Jones v. Bock, 549 U.S.
199, 127 S.Ct. at 910, 166 L.Ed,2d 798 (2007), Gerber v. Sweeney, 292 F.Supp.2d 700 (E.D.Pa.
2003), and Hill v. Snyder, 2015 U.S. Dist. LEXIS 83845, 2015 WL 3948863 (S.D. Ind., June 29, .
2015). As a result, he contends that each defendant was deliberately indifferent to Torres’ safety
because they “failed to make and/or take adequately reasonable measures (which includes having
such adequate reasonable measures adequately enforced by each defendant) to guarantee that Torres
could not and would not be attacked by any inmate confined in administrative segregation while
Torres was assigned to work there.”
Torres argues that people being attacked through food slots is “long-standing and pervasive
throughout TDCJ” so as to constitute a sufficiently imminent danger likely to cause harm, which
Officer Endsley was obligated to guard Torres from but failed to do so.

6

'Case 6:17tCV-00196-RC-JDL Document 36 Filed 08/24/18 Page 7 of 10 PagelD #: 255

Torres contends that Officer Endsley knew that Torres was not the first inmate to get
assaulted through a food slot and that inmates have weapons in their cells, although he fails to
explain his basis for this assertion regarding Officer Endsley’s knowledge. Adames, 331 F.3d at 513
(evidence that some state inmates had escaped from their cells did not show a “longstanding and
pervasive problem” of which the prison officials must have been aware).
Although Torres repeatedly asserts that inmates stabbing officials or other inmates through
the food slot is a “longstanding and pervasive problem,” he offers nothing to substantiate this
contention other the conclusory assertion itself. As the Magistrate Judge stated, research has not
uncovered any other cases in the State of Texas in which a prisoner brought suit complaining that
another inmate assaulted him through the food slot. None of the three cases cited by Torres - Jones,
Gerber, or Hill - involve prisoners assaulting other prisoners or guards through the food slots in their
cell doors, nor are any of these cases from the State of Texas.
Torres argues that the Magistrate Judge’s Report “never disputes Torres’ factual allegations
that Lt. Sims, Major Funai, and Warden Baker knew that unit-wide, region-wide, system-wide, and
nation-wide, ad.seg. inmates have weapons in their cells and that ad.seg. inmates attack people
through the food slots.” The fact other assaults may have happened in other states or at other units
in the past does not show this was a long-standing and pervasive problem of which the prison
officials must have been aware, and Torres has offered nothing beyond conclusions to show that the
officials must have known of a sufficiently imminent danger. Adames, 331 F.3d at 513.
Torres complains that no staff member ever warned him about attacks from other inmates
through food slots, but fails to show how the lack of such a warning amounted to deliberate
indifference to his safety rather than at most mere negligence or carelessness. Furthermore, as the
Magistrate Judge observed, Torres states that he saw Sanchez put his whole arm through the food
slot as Sanchez gestured toward the pictures on the floor; thus, Torres was necessarily aware that
Sanchez could reach out of the food slot if he wished.

7

Case 6:17-cv-00196-RC-JDL Document 36 Filed 08/24/18 Page 8 of 10 PagelD #: 256"

Torres complains that there was no posted rule prohibiting SSI’s from handing food trays
to inmates in administrative segregation cells or from pouring drinks into their cups, but he offers
nothing to suggest that any such prohibition exists at all, much less that the failure to have such a
prohibition amounts to deliberate indifference. He states that he should not have to identify what
“reasonable measures” he believes should be taken to ensure that he cannot and will not be
assaulted, although he faults the Defendants for failing to implement such measures.
VI. Discussion
Torres’ claims are based on the assertion that the Defendants were deliberately indifferent
to his safety. The Fifth Circuit has held that prison officials have a duty to protect inmates from
violence at the hands of other prisoners, but not every injury suffered by a prisoner at the hands of
another rises to the level of a constitutional violation. Horton v. Cockrell, 70 F.3d 397,400 (5th Cir.
1995). The plaintiff prisoner must prove both that he is incarcerated under conditions "posing a
substantial risk of serious harm" and that the prison official's state of mind is one of "deliberate
indifference" to the inmate's health or safety. Id. at 401, citing Farmer, 511 U.S. at 837. Prison
authorities must protect not only against current threats, but also must guard against "sufficiently
imminent dangers" that are likely to cause harm "in the next week or month or year." Id. at 401.
In Farmer, the Supreme Court explained that
[A] prison official cannot be held liable under the Eighth Amendment for denying
an inmate humane conditions of confinement unless the official knows of and
disregards an excessive risk to inmate health or safety; the official must both be
aware of facts from which the inference could be drawn that a substantial risk of
serious harm exists, and he must also draw the inference. ...
But an official's failure to alleviate a significant risk which he should have perceived,
but did not, while no cause for commendation, cannot under our cases be condemned
as the infliction of punishment.
Farmer, 511 U.S. at 837-38; see also Reeves v. Collins, 27 F.3d 174, 176 (5th Cir. 1994).
Those allegations in Torres’ pleadings which are factual and not conclusory, when taken as
true, do not set out factual content allowing the Court to draw the reasonable inference that the
defendants are liable for the misconduct alleged and which raise the right to relief above the

8

■ Case 6:17-cv-00196-RC-JDL Document 36 Filed 08/24/18 Page 9 of 10 PagelD #: 257

speculative level. His pleadings do not show that any of the named Defendants were deliberately
indifferent to his safety under the standards set out by the Supreme Court in Farmer because these
pleadings are insufficient to shown that Officer Endsley or the supervisory officers must have known
of an imminent danger posed by the fact that Torres was helping to feed inmates on D Pod. Iqbal,
556 U.S. at 678 (threadbare recitals of the elements of a cause of action, supported by mere
conclusory statements, are not sufficient). Torres’ objections are without merit.
VII. Conclusion
The Supreme Court has stated that where the defendants have filed a motion to dismiss under
Fed. R. Civ.P. 12(b)(6), a plaintiff with an arguable claim is ordinarily accorded notice of a pending
motion to dismiss for failure to state a claim and an opportunity to amend the complaint before the
motion is ruled upon. These procedures alert him to the legal theory underlying the defendants'
challenge, and enable him meaningfully to respond by opposing the motion to dismiss on legal
grounds or by clarifying his factual allegations so as to conform with the requirements of a valid
cause of action. This adversarial process also crystallizes the pertinent issues and facilitates
appellate review of a trial court dismissal by creating a more complete record of a case. Neitzke v.
Williams, 490 U.S. 319, 329-30, 109 S.Ct. 1827, 104 L.Ed.2d 338 (1989).
As the Magistrate Judge correctly observed, Torres was given a meaningful opportunity to
respond by the Defendants’ motion to dismiss, giving him the chance to reply to this motion or to
amend his complaint. In response, Torres filed a lengthy and detailed reply to the motion to dismiss.
The Magistrate Judge reviewed the pleadings and issued a Report recommending that the lawsuit
be dismissed, to which Torres filed objections.
The Court has conducted a careful de novo review of those portions of the Magistrate Judge’s
proposed findings and recommendations to which the Plaintiff objected. See 28 U.S.C. §636(b)(l)
(District Judge shall “make a de novo determination of those portions of the report or specified
proposed findings or recommendations to which objection is made.”) Upon such de novo review,

9

Case 6:17-cv-00196-RC-JDL Document 36 Filed 08/24/18 Page 10 of 10 PagelD #: 258’ ''

the Court has determined the Report of the Magistrate Judge is correct and the Plaintiffs objections
are without merit. It is accordingly
ORDERED that the Plaintiffs objections are overruled and the Report of the Magistrate
Judge (docket no. 30) is ADOPTED as the opinion of the District Court. It is further
ORDERED that the Defendants’ amended motion to dismiss (docket no. 26) is GRANTED
and the above-styled civil action is DISMISSED WITH PREJUDICE for failure to state a claim
upon which relief may be granted. It is further
ORDERED that any state law claims raised by the Plaintiff are DISMISSED WITHOUT
PREJUDICE to their refiling in state court, with the statute of limitations suspended for 30 days
following the date of entry of final judgment. 28 U.S.C. § 1367(d). Finally, it is
ORDERED that any and all motions which may be pending in this civil action are hereby
DENIED.
So ORDERED and SIGNED August 24, 2018.

Ron Clark, Senior District Judge

10

< ..

*
*

APPENDIX
F
Respondents' brief on appeal

Case No. 19-40470

3fa tfjc

fttttfteb States: Court of Appeals
for tfje fitti) Cfrtutt
CHRISTOPHER BRYAN TORRES,
Plaintiff - Appellant,
v.
BRAD LIVINGSTON; WILLIAM STEPHENS; KELVIN SCOTT; EDGAR
BAKER JR; TODD FUNAI; FRANCES SIMS; JONATHAN ENDSLEY,
Defendants - Appellees
On Appeal from the United States District Court for the
Eastern District of Texas, Tyler Division
Cause No. 6T7-CV-196
BRIEF OF APPELLEES
Ken Paxton
Attorney General of Texas
Jeffrey C. Mateer
First Assistant Attorney General
Darren L. Mccarty
Deputy Attorney General
for Civil Litigation

Shanna E. Molinare
Chief, Law Enforcement Defense
Division
P. Trent Peroyea*
Assistant Attorney General
Office of the Attorney
General
P.O. Box 12548
Austin, Texas 78711-2548
Tel: (512) 475-3042
Fax: (512) 936-2109
Counsel for Appellees
Livingston, Stephens, Scott,
Baker, Funai, Sims, & Endsley
*Attorney-in-Charge

Certificate of Interested Persons
Appeal Number: 19-40470
Christopher Biyan Torres v. Brad Livingston, et al.,
The undersigned counsel of record certifies that the following listed persons and
entities as described in the fourth sentence of Fed. R. App. P. 28.2.1 have an interest in
die outcome of this case. These representations are made in order that the judges of
this court may evaluate possible disqualification or recusal.
•

Christopher Bryan Torres, TDCJ No. 1142645, Plaintiff-Appellant

•

Brad Livingston, William Stephens, Kelvin Scott, Edgar Baker Jr., Todd Funai,
Frances Sims, and Jonathan Endsley

•

P. Trent Peroyea, Counsel for Defendants-Appellees Livingston, Stephens, Scott,
Baker, Funai, Sims, and Endsley

/ s! P. Trent Perovea
P. Trent Peroyea
Assistant Attorney General
Counsel for Appellees
Livingston, Stephens, Scott
Baker, Funai, Sims, & Endsley

li

Statement Regarding Oral Argument
Oral Argument Not Requested
Appellees submit that the legal arguments, issues on appeal, and statement of the
record are adequately presented in the briefs of the parties, and oral argument is not
necessary. If, however, the Court requests oral argument, Appellees will be prepared to
present their arguments to the Court.

in

Table of.Contents

Certificate of Interested Persons

n

Statement Regarding Oral Argument.

in

Oral Argument Not Requested

:in

Table of Contents

lv

Table of Authorities

v

Statement Regarding Jurisdiction

1

Issue Presented

1

Statement of the Case

1

Summary of the Argument

4

Argument and Authorities

5

A.

Standard of Review

5

B.

Tories fails to state a claim against any of the Appellees under § 1983

5

C.

Torres’ Motion for Reconsideration was properly denied....................

15

Conclusion....................................................................................

19

Notice of Electronic Compliance

21

Certificate of Sendee

21

Certificate of Compliance

22

IV

Table of Authorities
Cases
Adames v. Perez,
331 F.3d 508 (5th Cir. 2003).........................................
Aguilar v. Chastain,
923 S.W.2d 740 (Tex. App—Tyler 1996, writ denied)
Alton v. Tex. A&M Univ.,
168 F.3d 196 (5th Cir. 1999)..........................................
Ashcroft v. Iqbal,
556 U.S.662 (2009)................................................. ......
Bell Atlantic Corp. v. Twombly,
550 U.S. 544 (2007).......................................................
Black v. Warren,
134 F.3d 732 (5th Cir. 1998)..........................................
Calhoun v. Hargrove,
312 F.3d 730 (5th Cir. 2002)..........................................
Daniels v. Pipefitters Association Local Union No. 597,
983 F.2d 800 (7th Cir. 1993)..........................................
DeShaney v. Winnebago Cnty. Dep’t of Social Serv.,
489 U.S. 189(1989).......................................................
Domino v. Texas Dep’t of Criminal Justice,
239 F3d 752 (5th Cir. 2001)...........................................
Estelle v. Gamble,
429 U.S. 97(1976).........................................................
Farmer v. Brennan,
511 U.S. 825 (1994).......................................................
Fee v. Herndon,
900 F.2d 804 (5th Cir.)...................................................
Hare v. City of Corinth,
74 F.3d 633 (5th Cir. 1996)............................................
Hernandez v. Tex. Dep 7 of Protective & Reg. Servs.,
380 F.3d 872 (5th Cir. 2004)......
In re Katrina Canal Breaches Litig.,
495 F.3d 191 (5th Cir. 2007)......
Infusion Res. Inc. v. Minimed, Inc.,
351 F.3d 688 (5th Cir. 2003)..
Lozano v. Smith,
718 F.2d 756 (5th Cir. 1983)..
Marsh v. Jones,
53 F3d 707 (5th Cir. 1995)....
Midland W. Corp. v. F.D.I.C.,
911 F.2d 1141 (5th Cir. 1990)

v

10, 13, 19

8
6, 15
5,6
..... 5
6
18
6,7
8
7,8
7, 8, 9, 18
11
7
8
5
17
11
13
5

Murphy v. Kellar,
950 F.2d 290 (5th Cir. 1992).......
Neitzke v. Williams,
490 U.S. 319 (1989)....!................
Reeves v. Collins,
27 F.3d 174 (5th Cir. 1994).........
Rhyne v. Henderson County,
973 F.2d 386 (5th Cir. 1992).......
Rizzo v. Goode,.
423 U.S. 362(1976).....................
Rosenzweig v. Azurix Corp.,
332 F.3d 854 (5th Cir. 2003).......
Ruiz v. Lynaugh,

11
6,7
9
8
11
17

811 F.2d 856 (5th Cir. 1987).......

5

Schiller v. Physicians Res. Grp. Inc.,
342 F.3d 563 (5th Cir.2003)........
Thibodeaux v. Arceneaux,
768 F.2d 737 (5th Cir. 1985).......
Thompson v. Steele,
709 F.2d 381 (5th Cir. 1983).......
Thompson v. Upshur County, TX,
245 F.3d 447 (5th Cir. 2001).......
Wesson v. Oglesby,
910 F.2d 278 (5th Cir. 1990).......
Whitley v. Albers,
475 U.S. 312, (1986)....................
Wilson v. Seiler,
501 U.S. 294 (1991).....................
Youngberg v. Romeo,
457 U.S. 307 (1982).....................

17
12
11
8
6
9
7
6,7

Statutes
28 U.S.C. § 1291
42 U.S.C. § 1983

1
1,5,6

Rules
Fed. R. Civ. P. 59.............................................................
Federal Rule of Appellate Procedure 32(a)(7)(C)........
Federal Rule of Civil Procedure 12(b)(6)......................
Federal Rules of Civil Procedure 12(b)(1) and 12(b)(6)
Rule 32(a)(5)........................................................... ........
Rule 32(a)(6)............................ ........................................
Rule 32(a)(7)(B)........................... ......................... :.........
Rule 59(e)..........................................................................

vi

15, 18
22
5
3
22
22
22
17, 19

Statement Regarding Jurisdiction
Appellant Christopher Torres did timely appeal the district court’s order of final
judgment. The District court denied Appellant’s Rule 59(e) motion on April 4, 2019.
Appellant filed his notice of appeal on May 16, 2019. This Court has appellate
jurisdiction pursuant to 28 U.S.C. § 1291.
Issue Presented
Issue One: Whether the District court erred in granting Defendant’s Amended Motion
to Dismiss?
Issue Two: Whether the district court abused its discretion when it denied Appellant’s
Motion for Reconsideration?
Statement of the Case
Appellant Christopher Torres is an inmate incarcerated in the Texas Department of
Criminal Justice (TDCJ). He brings suit under 42 U.S.C. § 1983 alleging that Defendant
Endsley, a correctional officer for TDCJ, failed to protect him from an attack by a
fellow prisoner. ROA 168 at 178. Plaintiff Torres also sues several TDCJ staff for failing
to protect him from this attack. ROA 168 at 178. Torres is requesting a Declaratory
Judgment along with nominal, compensatory, and punitive damages. ROA 168 at 178179.
s ■

Torres states that on Saturday, June 27, 2015, he was performing his duties as an
inmate janitor in the administrative segregation building of TDCJ-CID’s Michael Unit
located in Tennessee Colony, Texas. ROA 168 at 170. During this time, Defendant
1

Endsley, the floor officer on duty, asked Torres to help him feed the administrative
segregation inmates.1 ROA 168 at 170-171. Defendant Endsley opened the food tray
slots on every cell in a row of seven cells, then Torres would hand each administrative
segregation inmate a food tray through their opened food slot. ROA 168 at 171. While
the food slots were open, some of the inmates would request for Defendant Endsley
to pass things like books, newspapers, and magazines. ROA 168 at 171. Torres states
that Defendant Endsley responded to these inmates by saying, “Have the SSI [Torres]
do it for you.” Id. Torres would then pass through whatever was requested by that
inmate. Id. When Endsley and Torres arrived as inmate Sanchez’s cell door, Sanchez
asked Defendant Endsley to retrieve pictures laying on the floor just outside of his cell
for him. ROA 168 at 172. Endsley responded by saying that (Torres) would get the
pictures for him. Id. Torres alleges that when he reached down to grab the pictures off
the ground, inmate Sanchez stabbed him on the right side of the neck with a two-foot
pole that had a barbed-tip nail on the end. Id. Torres alleges that Defendant Endsley
violated his Eighth Amendment rights by failing to protect him from the stabbing. ROA
168 at 178. Torres brings negligence and deliberate indifference claims arising out of
the incident.

1

Inmates housed in administrative segregation do not go to the cafeteria to eat

meals; rather, meals are brought and served to them in their cells.

2

The Appellees filed an Amended Motion to Dismiss Pursuant to Federal Rules
of Civil Procedure 12(b)(1) and 12(b)(6) on March 1, 2018. The Magistrate Judge
assigned to the case issued a Report and Recommendation to Dismiss the case with
prejudice for failure to state a claim upon which relief may be granted. ROA 219. The
Presiding Judge issued a Memorandum adopting the report and recommendation of the
magistrate judge and entering final judgment. ROA 256, 266. The Plaintiff filed a
motion for reconsideration on October 11,2018. ROA 267. The District Court denied
this motion on April 4, 2019. The Appellant filed his notice of Appeal on Monday, May
16, 2019. ROA 303.

3

Summary of the Argument
The district court properly dismissed Torres’s suit. Torres, a TDCJ inmate, filed
suit pro se and in forma pauperis. As such, his action is subject to the Prison Litigation
Reform Act (the “PLRA”). The PLRA amended § 28 U.S.C. 1915 to require the district
court to dismiss in forma pauperis prisoner civil rights suits if the court determines that
the action is frivolous or malicious or does not state a claim upon which relief may be
granted;

§ 28'U.S.C: 1915(e)(2)(B)(i) & (ii). Torres has failed to demonstrate any

error in the district court’s holding that Torres failed to state a claim upon which relief
may be granted. Further, the district court in this case was well within its discretion
when it denied Torres’ Motion for reconsideration. For these reasons, this court should
affirm the district court’s judgment.

4

Argument and Authorities

A. Standard of Review
The Prison Litigation Reform Act (PLRA) amended § 1915 to require the district
court to dismiss in forma pauperis (IFP) prisoner civil rights suits if the court determines
that the action is frivolous or malicious or does not state a claim upon which relief may
be granted.,§ 28 U..S.C, 1915(e)(2)(B)(ii);. The lower court dismissed.this case due to
Appellant’s failure to state a claim under which relief may be granted. ROA 256, 266.
As the language of § 28 U.S.C. 1915(e)(2)(B)(ii) tracks the language of Federal Rule of
Civil Procedure 12(b)(6), appellate courts analyzing such dismissals should do so under
a de novo standard of review. Black v. Warren, 134 F.3d 732, 734 (5th Cir. 1998).
The lower court also dismissed the Appellant’s Rule 59(e) Motion for
Reconsideration. The standard of review for denial of a Rule 59(e) motion is abuse of
discretion. Midland W. Corp. v. F.D.I.C., 911 F.2d 1141,1145 (5th Cir. 1990). Under this
standard, the district court’s decision and decision-making process need only be
reasonable. Rui^v. Lynaugh, 811 F.2d 856, 861 (5th Cir. 1987).
B. Torres fails to state a claim against any of the Appellees under § 1983.

To avoid dismissal for failure to state a claim, a plaintiff must plead “enough facts
to state a claim to relief that is plausible on its face.” In re Katrina Canal Breaches
Litig, 495 F.3d 191, 205 (5th Cir. 2007), cert, denied, 552 U.S. 1182 (2008) (quoting
Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 570 (2007)). The “[f]actual allegations
5

must be enough to raise a right to relief above the speculative level, on the assumption
that all the allegations in the complaint are true (even if doubtful in fact).” Id. (quoting
Twombly, 550 U.S. at 555). This standard is referred to as the “flexible plausibility
standard.” Ashcroft v. Iqbal, 556 U.S. 662,129 (2009).
In deciding a motion to dismiss for failure to state a claim, a court must accept
well-pleaded factual allegations as true and view them in a light most favorable to the
plaintiff.

Calhoun v. Hargrove, 312 F.3d 730, 733 (5th Cir. 2002). The Court is

instructed to look to the substance of the complaint, setting aside statements of “bare
legal conclusions, with no suggestion of supporting facts.” Wesson v. Oglesby, 910
F.2d 278, 281 (5th Cir. 1990). The Court is authorized “...to pierce the veil of the
complaint’s factual allegations and dismiss those claims whose factual contentions are
clearly baseless.” Neitzke v. Williams, 490 U.S. 319, 327 (1989).
1. Appellant fails to state a claim that Appellee Endsley failed to protect him
under Section 1983.
When the “State takes a person into its custody and holds him there against his
will, the Constitution imposes upon it a corresponding duty to assume some
responsibility for his safety and general well-being.” DeShaney v. Winnebago Cnty. Dep’t of
SocialServ., 489 U.S. 189, 199-200 (1989); Youngbergv. Romeo, 457 U.S. 307, 317 (1982)
(“When a person is institutionalized—and wholly dependent on the State[,] ... a duty to
provide certain sendees and care does exist”). The rationale for this principle is that
when the State restrains an individual's liberty in a manner that renders him unable to
6

care for himself, the Eight Amendment and Due Process Clause impose an affirmative
duty to provide for his basic human needs—e.g., food, clothing, shelter, medical care,
and reasonable safety. See DeShaney, 489 U.S. at-200; Youngberg, 457 U.S. at 315—16; 'Estelle
v. Gamble, 429 U.S. 97,103—04 (1976); “The affirmative duty to protect arises not from
the State's knowledge of the individual's predicament or from its expressions of intent
to help him, but from the limitation which it has imposed on his freedom to act on his
own behalf.” DeShaney, 489 U.S. at 200.
The Eighth Amendment expressly prohibits the infliction of "cruel and unusual
punishments."

U.S. Const. Amend. VIII. It not only proscribes excessive sentences

but also protects inmates from inhumane treatment and conditions while imprisoned.
See Wilson v. Seiter, 501 U.S. 294, 298 (1991); Estelle v. Gamble, 429 U.S. 97, 104 (1976).
A plaintiff must prove both that he is incarcerated under conditions “posing a
substantial risk of serious harm” and that prison official’s state of mind is one of
“deliberate indifference” to the inmate’s health and safety. Id. at 401. “Deliberate
indifference”, as it is used in the Eighth Amendment context, comprehends more than
mere negligence but less than the purposeful or knowing infliction of harm...it requires
a showing of subjective recklessness as used in criminal law.”

Farmer v. Wen nan, 511

U.S. 825, 836 (1994) (internal quotations omitted); Flare v. City of Corinth, 74 F.3d 633,
647—48 (5th Cir.1996). To act with deliberate indifference “the official must both be
aware of facts from which the inference could be drawn that a substantial risk of serious
harm exists, and he must also draw the inference.” Farmer, 511 U.S. at 835.
7

Prison officials are not liable for failure to. protect if (1) “they were unaware of
even an obvious risk to inmate health or safety,” (2) “they did not know of the
underlying facts indicating a sufficiently substantial danger,” (3) “they knew of the
underlying facts but believed (albeit unsoundly) that the risk to which the facts gave rise
was insubstantial or nonexistent,” or (4) “they knew of a substantial risk to inmate
health or safety,... [and] responded reasonably to the danger, even if the harm was not
ultimately averted ” Farmer at 844-45., The Fifth Circuit has stated that “deliberate
indifference is an extremely high standard to meet.” Domino v. Texas Dep’t of Criminal
Justice, 239 F3d 752, 756 (5th Cir. 2001). It “cannot be inferred merely from a negligent
or even grossly negligent response to a substantial risk of serious harm.” Thompson v.
Upshur County, TX, 245 F.3d 447, 459 (5th Cir. 2001). The Fifth Circuit has also held
that the basis of § 1983 liability “must amount to an intentional choice, not merely an
unintentionally negligent oversights Rhyne v. Henderson County, 973 F.2d 386, 392 (5th Cir.
1992) (emphasis added). “[Ajctions and decisions by prison officials that are merely
inept, erroneous, ineffective, or negligent do not amount to deliberate indifference.”
Hernandez v. Tex. Dep’t of Protective & Reg, Sens., 380 F.3d 872, 883 (5th Cir. 2004)
(quoting Alton v. Tex. A&M Univ., 168 F.3d 196, 201 (5th Cir. 1999)). Deliberate
indifference encompasses only unnecessary and wanton infliction of pain repugnant to
the conscience of mankind. Estelle v. Gamble, 429 U.S. 97,106 (1976).
While Torres’ injury is very unfortunate, Appellee Endsley cannot be held liable
for failing to protect Torres from being stabbed through a food slot by inmate Sanchez.
8

Appellee Endsley was unaware of the fact that Torres was in any kind of danger when
he bent to pick up the pictures on the ground. There was nothing in the area that posed
a general threat to Torres’ safety or anything noticeable that would cause Endsley to
reasonably foresee that Sanchez would attack Torres. Torres also alleges that Sanchez
was transferred to administrative segregation for stabbing an officer in the eye through
his open food slot door, but does not indicate that Endsley had personal knowledge of
this fact. ROA 168 at 176-177. But even if this is taken as true, the conditions
surrounding Torres in the moments leading up to the stabbing did not pose a substantial
risk of serious harm that Endsley would have known about, and do not come close to
the high standard needed to establish deliberate indifference.
While prison officials like Appellee Endsley should try to prevent these types of
altercations, they cannot prevent all of them. Torres does not allege that he gave any
indication to Appellee Endsley that he felt unsafe while assisting him. The legal
conclusion of deliberate indifference must rest on facts clearly evincing “obduracy and
wantonness, not inadvertence or error in good faith.” Whitley v. Albers, 475 U.S. 312,
319, (1986). Torres’ pleading does not indicate that Appellee Endsley had any of kind
desire for the wanton infliction of pain to be brought upon Torres, nor does he indicate
V.

Endsley had knowledge of Sanchez’s history of violent behaviors! An official's failure
to alleviate a significant risk which he should have perceived, but did not, while no cause
for commendation, cannot under our cases be condemned as the infliction of
punishment. Farmer, 511 U.S. at 837-38; see also Reeves vl Collins, 27 F.3d 174, 176 (5th
9

Cir. 1994). Even if Torres’ allegation that he was stabbed by inmate Sanchez while
helping Appellee Endsley is taken as true, it does not meet the high standard of
deliberate indifference under the 8th Amendment.
Other cases ruled on by the 5th Circuit support dismissal of these claims. In
Adames, a Texas prisoner was assaulted by another inmate who had escaped from his
cell. A jury found in the prisoner’s favor against some of the defendants, but the Fifth
Circuit vacated this judgment and remanded for a new trial. In so doing, the Fifth
Circuit determined that the existence of other incidents in which prisoners had escaped
from their cells, in which the named defendants were not involved, did not show that
the problem of such escapes was so pervasive that the defendants must have known of
the danger. Adames v. Pere% 331 F.3d 508, 513 (5th Cir. 2003). Torres’ pleadings do not
set out a claim of deliberate indifference against Officer Endsley because the Appellant
offered nothing to suggest that Endsley knew of and disregarded a substantial risk to
Torres’ health or safety. The Trial Court did not err in dismissing Torres’ claims against
Appellee Endsley for failure to state a claim upon which relief can be granted.
2. Appellant’s Negligence Claim
Torres indicates he is suing Appellees in their individual capacities. ROA 168 at
169-170. To die extent Torres is suing Appellees in their individual capacities under the
Texas Tort Claims Act, he cannot sue in this manner because the Tort Claims Act “does
not provide for recovery against individuals employed by the State. A person making a
claim under the [act] must sue the governmental unit responsible for allegedly causing
10

the harm to [waive] sovereign immunity.” Aguilar v. Chastain, 923 S.W.2d 740, 744 (Tex.
App—Tyler 1996, writ denied). State employees are simply not proper parties under
the act when they are sued in their individual capacity, as Torres sues Appellees here.
ROA 168 at 169-170. Torres’ petition has no basis in law because he cannot sue
Appellees in their individual capacities under the Texas Tort Claims Act. The District
court did not err in declining to exercise supplemental jurisdiction over these state law
claims.
3. Plaintiff fails to allege any personal involvement of Appellees Livingston,
Stephens, Scott, Baker Jr., Funai, and Sims
A section 1983 plaintiff must establish a causal connection between an alleged
constitutional deprivation and each defendant whom he would hold responsible. Lozano
v. Smith, 718 F.2d 756, 768 (5th Cir. 1983). Absent personal involvement by the
defendant, a plaintiff may not recover under § 1983. Thompson v. Steele, 709 F.2d 381,
382 (5th Cir. 1983). A civil rights plaintiff cannot simply make generalized allegations
or assert legal or constitutional conclusions to satisfy these requirements. Murphy v.
Kellar, 950 F.2d 290, 292 (5th Cir. 1992). To sustain his complaint, a plaintiff must
instead state particular facts specifying the personal involvement of each defendant. Fee
v. Herndon, 900 F.2d 804 (5th Cir.) cert, denied, 498 U.S. 908 (1990). These facts must
create an affirmative link between the claimed injury and each of the defendant’s
conduct. Rizzo v. Goode, 423 U.S. 362, 371-72, 377 (1976).

11

Although Torres lists Livingston, Stephens, Scott, Baker Jr., Funai, and Sims as
Defendants, he alleges no facts relating to them regarding the alleged incident. While
Torres alleges the Appellees had knowledge of people getting hurt through food slot
doors in the past, he does not claim they had any knowledge pertaining to this incident.
The purpose of food slot doors is to minimize the risks of dangerous encounters with
inmates housed in administrative segregation. But this does not mean that all dangerous
encounters are preventable. Knowledge that prison can be a dangerous place, or that
some inmates may be dangerous, is insufficient to demonstrate a particularized
knowledge of substantial risk of serious harm. To the extent that Torres is suing
Livingston based on his role as former Executive Director of TDCJ, his claim has no
basis in law because supervisory officials may not be held liable for their subordinates’
actions under any theory of vicarious liability under § 1983. Thibodeaux v. Arceneaux, 768
F.2d 737, 739 (5th Cir. 1985) (per curiam). Similarly, his claim lacks an arguable basis in
law to the extent he is suing Stephens as the former Director of TDCJ-CID, Scott as
the Region 2 Director of TDCJ-CID, or Baker, Jr. as the Former Senior Warden of the
Michael Unit. Torres’ claims against these supervisory Appellees fail to set forth specific
facts demonstrating their personal involvement in the alleged wrongdoing.
Assuming arguendo he is able to show their personal involvement, Torres did
not state what reasonable means or precautions he believed the supervisory Appellees
should have implemented, and that in the absence of a showing that Officer Endsley
committed a constitutional violation, Torres cannot sustain a claim of supervisory
12

liability. Torres cites a portion of a TDCJ-CID’s Administrative Directive as follows
. .Safety precautions shall be followed in serving meals.” ROA 168 at 176-177. While
it is unclear what kind of safety precautions Torres believes were not followed, failing
to comply with an internal agency policy does not state a claim for relief under § 1983.
Marsh v. Jones, 53 F3d 707, 711-12 (5th Cir. 1995).
Although Torres repeatedly asserts that inmates stabbing officials or other
inmates through the food slot is a “longstanding and pervasive problem,” he offers
nothing to substantiate this contention other the conclusory assertion itself. Research
has not uncovered any other cases in the State of Texas in which a prisoner brought
suit complaining that another inmate assaulted him through the food slot. None of the
three cases cited by Torres - Jones, Gerber, or Hill - involve prisoners assaulting other
prisoners or guards through the food slots in their cell doors, nor are any of these cases
from the State of Texas.
Torres argues that Appellees “never dispute Torres’ factual allegations that Lt.
Sims, Major Funai, and Warden Baker knew that unit-wide, region-wide, system-wide,
and nation-wide, ad.seg. inmates have weapons in their- cells and that ad.seg. inmates
attack people through the food slots.” The fact that other assaults may have happened
in other states or at other units in the past does not show this was a long-standing and
pervasive problem of which the prison officials must have been aware, and Torres has
offered nothing beyond conclusions to show that the officials must have known of a
sufficiently imminent danger. Adames, 331 F.3d at 513.
13

Torres complains that no staff member ever warned him about attacks from
other inmates through food slots but fails to show how the lack of such a warning
amounted to deliberate indifference to his safety rather than at most mere negligence
or carelessness. Furthermore, Torres states that he saw Sanchez put his whole arm
through the food slot as Sanchez gestured toward the pictures on the floor; thus, Torres
was necessarily aware that Sanchez could reach out of the food slot if he wished.
Torres complains that there was no posted rule prohibiting SSI’s from handing
food trays to inmates in administrative segregation cells or from pouring drinks into
their cups, but he offers nothing to suggest that any such prohibition exists at all, much
less that the failure to have such a prohibition amounts to deliberate indifference. He
states diat he should not have to identify what “reasonable measures” he believes
should be taken to ensure that he cannot and will not be assaulted, although he faults
the Appellees for failing to implement such measures. Torres did not state what
reasonable means or precautions he believed the supervisory Appellees should have
implemented and that in the absence of a showing that Officer Endsley committed a
constitutional violation, Torres cannot sustain a claim of supervisory liability. Further,
Torres’ pleadings fail to adequately allege either an actual failure to train or supervise or
that any such failure amounted to deliberate indifference. Because he has not satisfied
this requirement under § 1983, he fails to state a cognizable claim. The Trial Court did
not err in dismissing Torres’ claims against Appellees Livingston, Stephens, Scott,
Baker, Jr., Funai, and Sims for failure to state a claim upon which relief can be granted.
14

*

In closing, Torres was given a meaningful opportunity to respond to the
Defendants’ motion to dismiss, giving him the chance to reply to the motion to dismiss
or to amend his complaint. He filed a lengthy and detailed reply which die District
Court carefully reviewed. ROA 196. The District Court Hewed Torres’ pleadings with
the liberality befitting his pro se status and taking his factual and non-conclusory
allegations as true, yet found he failed to state a claim upon which relief may be granted
because he has not set out sufficient factual matters, accepted as true, to state a claim
for relief which is plausible on its face. Iqbal, 556 U.S. at 678. The Trial Court did not
Jrr

err in dismissing Torres’ claims against all Appellees.
C. Torres’ Motion for Reconsideration was properly denied.

After the final judgment in this case was entered, Torres filed a motion to alter or
amend the judgment under Fed. R. Civ. P. 59. The district denied this motion. ROA
267, 295. The District Court did not abuse its discretion in denying Appellant’s Motion
for reconsideration.
In this motion, Torres states that he has new evidence in the form of an affidavit
from an inmate named Daniel Reyna. The affidavit states that over the course of 16
years, from 1995 to 2011, he was housed in administrative segregation at the Allred
Unit, the Telford Unit, and the Eastham Unit. Reyna claims that he witnessed “with my
own eyes” many assaults taking place through the food slots, at least one a week and
sometimes twice a day at the Eastham and Telford Units. In his motion, Torres argues

15

i
X

that this affidavit shows that the danger of assaults through the food slots is so long­
standing and pervasive that such assaults are long-standing, pervasive, welldocumented, or expressly noted by prison officials unit-wide, region-wide, systemwide, and nation-wide. ROA 267, 288.
The District Court reviewed Reyna’s affidavit. The District Court noted that it
“shows that he claims to have witnessed at least one attack per week through a food
slot over a 16-year period, alleging that sometimes the attacks were as often as two per
day. This means that at the rate of one per week, Reyna would himself have witnessed
over 800 assaults over this time period, likely closer to 1,000 when the weeks of multiple
assaults per day which he claimed to have seen are added in.” ROA 295 at 299.
Reyna’s affidavit claims that these were assaults which he witnessed personally,
which would mean that these assaults would have occurred in the section he was
located, on the row to which he was housed. Torres’ original complaint states that the
administrative segregation section at the Michael Unit has six pods, each of which has
six sections which contain two rows each, for a total of 72 rows in administrative
segregation. ROA 31 at 33. The District Court further noted that, “[i]f assaults occurred
at the Michael Unit at the same rate which Reyna claims to have observed elsewhere,
being one per week per row, the Michael Unit, administrative segregation area alone
would have experienced over 59,000 assaults during the 16-year period covered by
Reyna’s affidavit; however, as the Magistrate Judge observed, research reveals not a
single case in the State of Texas, other than the present one, in which a prisoner filed
16

suit alleging he was assaulted by another prisoner through the food slot.” ROA 295 at
300.
Torres also argues in his Motion that the Court failed to apply the correct legal
standard set out in Farmer. ROA 267 at 271-272. He does that by reasserting allegations
that he already made in his previous pleadings. ROA 267.
He closes -his motion by asking that his case be reopened and that the Court
change its ruling on the merits. ROA 267 at'279-280.
The Fifth Circuit has stated that relief under Rule 59(e) is appropriate where
there has been an intervening change in controlling law, the movant presents newly
discovered evidence which was previously unavailable, or to correct a manifest error of
law or fact. Schiller v. Physicians R^j. Grp. Inc., 342 F.3d 563, 567 (5th Cir.2003). A Rule
59(e) motion cannot be used to raise arguments that could and should have been made
before the judgment issued. Rosen^weig v. Ayurix Corp., 332 F.3d 854, 864 (5th Cir. 2003).
A motion to alter or amend the judgment based on die discovery of new evidence
should be granted only if: (1) the facts discovered are of such a nature that they would
probably change the outcome; (2) the facts alleged are actually newly discovered and
could not have been discovered earlier by proper diligence; and (3) the facts are not
merely cumulative or impeaching. Infusion Res. Inc. v. Minimed, Inc., 351 F.3d 688, 696-97
(5th Cir. 2003).
The requirement that the facts be of such a nature that they would probably
change the outcome necessarily includes a requirement that the newly discovered
17

evidence must be credible. See, e.g., Daniels v. 'Pipefitters Association Local Union No. 597,
983 F.2d 800, 803 (7th Cir. 1993) (holding in the context of a Rule 60(b)(2) motion that
district courts may consider the credibility. of evidence before granting motions for
reconsideration because such motions are decided by judges rather than juries and “to
hold otherwise would mean that the district court would have to order a new trial no
matter how incredible the evidence.”).
The District Court correctly concluded that “Reyna’s affidavit, attesting to
witnessing close to if not over a thousand assaults on other units carried out through
cell food slots, none of which formed the basis for a lawsuit in federal court, appears
to have little credibility and thus cannot form the basis for alteration or amendment of
the judgment of dismissal. Even were the affidavit credible, however, it does not rise to
the level of requiring that Rule 59 relief be granted. The affidavit demonstrates little
more than the well- known fact that, as Justice Thomas observed, “prisons are
necessarily dangerous places; they house society’s most antisocial and violent people in
close proximity to one another. Regrettably, some level of brutality and sexual
aggression among [prisoners] is inevitable no matter what the guards do ... unless all
prisoners are locked in their cells 24 hours a day and sedated.” Farmer, 511 U.S. at 85859 (Thomas, J., concurring).” ROA 295 at 301-302.
As noted by the District Court, the fact of other assaults in which the Defendants
were not involved and which, according to Reyna’s affidavit, occurred at other units
i

and not the Michael Unit, does not show that the Defendants were necessarily aware
18

of a specific danger posed to Torres. See Adames, 331 F.3d at 513. It is clear that Reyna’s
affidavit is self-serving and lacks little credibility, The District Court correctly concluded
that this affidavit “does not show that the danger of Torres being assaulted through the
food slot was so obvious that the Defendants were deliberately indifferent by failing to
take some unspecified action to protect Torres from harm in the normal course of his
day’s work.” ROA 295 at 302. Further, the District Court correctly concluded that
Torres has not shown that the supervisory’defendants were deliberately indifferent to
his safety by failing to discourage support service inmates from performing normal
duties by assisting in the feeding of segregated prisoners. ROA 256. The Appellant has
not shown that the District Court applied incorrect legal standards. Further, the District
Court did not abuse its discretion in finding that Torres’ motion to alter or amend the
judgment has not met the standards of Rule 59(e).
Conclusion
Because Torres fails to state a claim on which relief may be granted, the district
court properly dismissed his suit. This Court should affirm the ruling of the lower court.

Respectfully submitted.
KEN PAXTON
Attorney General of Texas
JEFFREY C. MATEER
First Assistant Attorney General
DARREN L. MCCARTY
Deputy Attorney General for Civil Litigation
19

SHANNA E. MOLINARE
Assistant Attorney General
Chief, Law Enforcement Defense Division
/ s/ P. Trent Perovea
P. TRENT PEROYEA
Assistant Attorney General
Texas State Bar No. 24098245
Law Enforcement Defense Division
Office of the Attorney General
P. O. Box 12548, Capitol Station
Austin, Texas 78711
(512) 475-3042 / (512) 370-9925 Fax No.
Trent.Peroyea@oag.texas.gov
ATTORNEYS FOR APPELLEES

20

Notice of Electronic Compliance
I, P. Trent Peroyea, Assistant Attorney General of Texas, certify that I have
electronically submitted for filing a true and correct copy of Brief of Appellees, in
accordance with the Electronic Case Files System of the Fifth Circuit Court of Appeals
on November 5, 2019. Counsel further certifies that 1) required privacy redactions have
been made in compliance with the Fifth Circuit Rule 25.2.13; and 2) the electronic
submission is an exact copy of the paper document in compliance with Rule 25.2.1.

/s/ P. Trent Peroyea_______
P. Trent Peroyea
Assistant Attorney General

Certificate of Service
I, P. Trent Peroyea, Assistant Attorney General of Texas, hereby certify that a
copy of the Brief of Appellees has been served on November 5, 2019, by placing the
same in the United States Mail, first class, postage prepaid, on November 5, 2019,
addressed to:
Christopher Bryan Torres, #1142645
Wynne Unit
810 FM 2821
Huntsville, TX 77349
Appellant Pro Se
/s/ P. Trent Peroyea_______
P. Trent Peroyea
Assistant Attorney General

21

Certificate of Compliance
As required by Federal Rule of Appellate Procedure 32(a)(7)(C), and pursuant to 5th
Cir. Rule 25.2,1 certify that:
1.

This brief complies with the type-volume limitations of Rule 32(a)(7)(B) because

this brief contains 3,073 words as calculated by Microsoft Word.
2.

This brief complies with the typeface requirements of Rule 32(a)(5) and the type-

style requirements of Rule 32(a)(6) because this brief has been prepared in a
proportionally spaced typeface using Microsoft Word 14-point Garamond font.
3.

The electronic version of this brief is an exact copy of the paper version, includes

the required privacy redactions under 5th Cir. Rule 25.2.13, and has been scanned and
reported free of viruses by the most recent version of a commercial virus-scanning
program.

Isl P. Trent Peroyea______
P, Trent Peroyea
Assistant Attorney General

22

APPENDIX
G
Torres'

§ 1983 complaint

1
I

i
*

IN THE UNITED STATES DISTRICT COURT
FOR THE -EASTERN DISTRICT OF TEXAS
TYLER DIVISION
CHRISTOPHER TORRES, a/k/a
Christopher Muhammad,
Plaintiff Pro Se

§

v.

§'

BRAD LIVINGSTON, Executive
Director, TDCJ;
WILLIAM STEPHENS, Director,
TDCJ-CID;
%

KELVIN SCOTT, TDCJ-CID's
Region II Regional Director:

§

§
§
§

CIVIL ACTION NO.

§

6:17-cv-196-RC-JDL

EDGAR BAKER, JR • / Senior Warden ,§
TDCJeCID,-sr Michael Unit:
t

***Jury Demand***

-•

§
TODD FUNAI, Major, Michael Unit's
Administrative Segregation Building: §

t

FRANCES SIMS, Shift Lieutenant,
§
Michael Unit's Ad. Seg. Building; and,

§
JONATHAN ENDSLEY, Correctional Officer,
Michael. Unit 's Ad. ..Seg. Building ■
§.
each in their individual capacity

'

‘

1-:;'r Defendants.

:'

§
1

PLAINTIFF TORRES' SECOND
PROPOSED AMENDED COMPLAINT
This is a civil rights action filed by Christopher Torres, a/k/a Christopher
Muhammad, a state prisoner, for a Declaratory Judgment and [nominal, compensa­
tory, and punitive] damages under 42 U.S.C. § 1983, alleging each, of the above
mentioned Defendants failed to .protect him from an attack by a fellow prisoner
in violation of the Eighth Amendment to the'United States Constitution. Torres
also alleges deliberate indifference and state law claims of gross negligence.
I.

-l-

J

r
\

JURISDICTION
1. The Court has jurisdiction over Torres' claim of violation of his federal
constitutional rights under 28 U.S.C. §§ 1331 and 1343(a)(3). The venue is
proper pursuant to 28 U.S.C. § 1391(b).
2. The Court has supplemental jurisdiction over Torres' state law claim(s)
under 28 U.S.C. § 1367.
II.
PARTIES
3. Plaintiff Torres was incarcerated at the TDCJ-CID's Michael Unit during the
events described in this complaint.
4. Defendant Jonathan Endsley ("Endsley") was the D-Pod/ Administrative Segreg­
ation ("Ad. Seg.") correctional officer on the Michael Unit on the morning
of June 27/ 2015. He is sued in his individual capacity.
5. Defendant Frances Sims ("Lt. Sims") was Michael Unit's ad. seg. Shift
Lieutenant on the morning of June 27, 2015. She is sued in her individual
capacity.
6. Defendant Todd Funai ("Major Funai") was the Major in charge of Michael
Unit's Ad. Seg. building on the morning of June 27, 2015. He is sued in his
individual capacity.
7. Defendant Edgar Baker, Jr. ("Warden Baker") was Michael Unit's Senior Warden
on the morning of June 27, 2015. He is sued in his individual capacity.
8. Defendant Kelvin Scott ("Scott") was Regional Director of TDCJ-CID's Region
Two on the morning of June 27, 2015. He is sued in his individual capacity.
9. Defendant William Stephens ("Stephens") was Director of TDCJ-CID on the
morning of June 27, 2015. He is sued in his individual capacity.
10. Defendant Brad Livingston ("Livingston") was Executive Director of TDCJ on
the morning of June 27, 2015. He is sued in his individual capacity,
(proposed) amended complaint each Defendant
11. At all times mentioned in this
-2-

L

r

acted under color of state law.
III.
FACTS
12. On Saturday,morning/ June 27, 2015, while performing part of my job duties
as an inmate janitor (referred to as an "SSI") in the ad. seg. building of
TDCJ-CID's Michael Unit in Tennessee Colony, Texas, I was stabbed in the
neck by a fellow prisoner whose name is Angel Sanchez ("Sanchez").
.13. Sanchez was an inmate housed in D-Pod, 8-cell of Michael's ad. seg. building.
14. Michael's ad. seg. building has six "Pods" (Pods "A" through "F"), each Pod
having six sections of cells, each section having two rows of seven single­
man cells: Every Pod has eighty-four cells.
15. With the exception of F-Pod, everyday each Pod was assigned just two guards
per shift: one guard ("floor officer") worked on the Pod's floor- the other
worked in the Pod's control picket ("picket officer"). Some days F-Pod had
two floor officers and a picket officer.
16. On the shift I was assigned to work on, there were six SSIs in charge of
cleaning the Pods---- one SSI per Pod. I was assigned to F-Pod.
17. My .job duties as an SSI in Michael's ad. seg. building included sweeping,
mopping, emptying trash cans, and according to the "Safety sheet" (or other
TDCJ document which fully detailed what my job duties were, which) I had to
sign when first working in there, there was a sentence sayinq something
about "I shall obey orders of the ad. seg. (guards."
18. On June 27, 2015, after I finished helping the F-Pod floor officer feed ad.
seg. inmates housed there, I left F-Pod to get some "hyper-caloric" snacks
!

from the ad. seg. kitchen for some diabetic.inmates on F-Pod, and as I
passed by D-Pod on my way to the said kitchen, Endsley, who was the floor
officer that morning on D-Pod, told me to come help him feed the ad. seg.

-3-

A

r
Y

inmates on D-Pod whenever I finished bringing the snacks to the F-Pod inmates.
For whatever reason, there was no SSI for D-Pod that morning.
19. When I began helping Endsley feed the D-Pod inmates, Endsley did as most all
other floor officers do during ad. seg. feeding times on the Michael Unit,
and on the Units of TDCJ-CID's Region Two, and on Units throughout all of
TDCJ-CID and the TDCJ: Endsley would simply just open the food tray slot
doors of every cell (onerright after another) on a particular row of seven
cells, then he would wait at the end of that row while I would have to hand
each ad. seg. inmate a food tray through their opened food slot (or just
leave it on their opened food slot if they were not at the slot) and I would
have to come back shortly later with a bucketful of drink and pour a cupful
of it into the cups of said ad. seg. inmates who would be holding their cups
through their opened food slot; the food slots of Michael's ad. seg. cell
i

doors were about five inches wide by about 1\ feet long.
20. Many times (during feeding times) while the said food slots were still open­
ed, the ad. seg. inmates would ask the floor officer to pass things (like
books, newspapers, magazines, photo;albums, food, ate.) back and forth to
the cells on that said row being fed, and most of the times the floor offi■ cer.;.would answer the ad. seg. inmates by saying something like, "Have the
SSI do it for you," and I (or other SSI working) would pass whatever the ad.
seg. inmate requested to be passed.
21. After I (and/or another SSI) would finish handing a tray to, and pouring a
drink into the cup of, every ad. seg. inmate through their opened food slot,
and after passing things back and. forth on that row, the floor officer would
quickly come by and quickly close every food slot (one right after another)
and then the floor officer and I would go to the next row of cells and feed
those ad. seg. inmates just like in 1T1T 19 and 20.
-4-

•1
i

22. When the floor officers fed just like in ^19 and 20, there would be no
supervisor present until after the ad. seg. inmates were all fed; only then
would supervisors make their rounds.
23. On June 27, 2015, while I began helping Endsley feed on D-Pod, there was no
supervisor present.
24. Just before I was stabbed by Sanchez, Endsley and I fed in the manner in *1119
on Section One, Row One, and Endsley gave the usual "Have the SSI do it for
you" response to those inmates when they requsted to have things passed
from one cell to another while the food slots were opened, and when Endsley
and I finished on that row, we proceeded to feed Two Row the same way.
25. Endsley was a few steps ahead of me when I got to Two Row, and when he open­
ed the food slot of Sanchez's cell door I seen Sanchez put an entire arm out
through his opened food slot, and while Sanchez used that said arm to point
down towards some pictures that lay on the floor just outside Sanchez's cell
door I heard Sanchez ask Endsley to get the said pictures for him (Sanchez)
and then I seen and heard Endsley tell Sanchez that "the SSI [which was me]
will get it for you. Ask him."
26. As Endsley went quickly towards cells 9 through 14 to quickly open each of
those cells' food slot, I was then in front of Sanchez's cell, and I handed
him his lunch tray and Sanchez then asked me to get the said pictures.
27. Since Endsley had me pass things backhand forth on One Row, and since I
heard Endsley tell Sanchez to ask me to get the pictures, and since I felt
sorry for Sanchez [because he appeared harmless and spoke in the right
tone], I reached down to get the pictures.
28. As I reached down and attempted to get the pictures off the floor, Sanchez
stabbed me on the right side of my neck with what appeared to be about a
two-foot-long pole [made out of tightly rolled up newspaper or magazine
-5-

A

r
i

pages] which had about a four-inch, sharpened, barbed-tip nail on it.
29. I felt the nail hit my neck bone, and according to the surgeon's report [at
East Texas Medical Center in Tyler, Texas, where I ha^. to be airlifted to],
the nail went right between the carotid artery and the internal jugular
vein, and I now have a visible three-inch-long scar from the surgeon's
incision.
30. Within about a week of the said June 27, 2015 stabbing, a lady who told me
she was an official with the TDCJ-OIG (Office of Inspector General) inter­
viewed me about the said stabbing incident.
31. The said O.I.G. official said her name was Ms. Gray (or Grey) and during her
interview of me, she insisted that I give her a written statement about what
happened, which I finally did give (a brief one), and she said to me that
the "only" thing I could do about the stabbing incident is press "criminal"
' charges on Sanchez, which T interpreted as her representing that I could not
grieve the dangerous working conditions that led to me being stabbed.
32. At the time of the said interview, I lost 95% of my voice and was unable to
talk normally; if I did talk, I had to do so with alot of effort and I would
get dizzy after about a minute of talking, and I would run out of breath
before completely saying a sentence.
33. From the time I awoke from the surgery [to remove the nail out of my neck]
on June 27, 2015, to about the time I had to have further surgery in late
September 2015 [to semi-fix the paralyzed right vocal cord], my mind was
clouded because I am in prison for something I did not do and then I thought
I would forever no longer have my normal voice back, and I also thought I
would forever have the breathing and speech problems I had after awakening
after the initial surgery. I also had initial problems eating and drinking.
/

34. While I have just about regained my voice back and am just about able to
-6-

1

i

normally eat and drink, till this very day I still have to constantly clear
my throat, I still must cough about every half-hour, and I get sharp head­
aches when I must cough, and I have a residual headache in between times I
have to cough.
35. TDCJ's medical personnel have prescribed medications for what I am still
' going through in 1134, but the medications do not help at all.
36. Since the stabbing incident in 1112, I have had several hospital appointments
and during my October 10, 2017 appointment with a neurologist [Neel Patel,
M.D.], that neurologist told me that the medical problems in 1T34 are "life­
long" and "irreparable".
37. When I began ;as an SSI in Michael Unit's ad. seg., I was never informed by
any staff member that TDCJ had a policy on properly feeding ad. seg. inmates.1
38. Nor was I ever warned by any staff member of the fact that I could be
assaulted/attacked by an ad. seg. inmate through an ad. seg. inmate's food
tray slot door when a' cell's food tray slot door was opened.
39. I was under the impression that---- because I seen the other Michael Unit ad.
seg-. SSIs helping floor officers feed ad. seg. inmates [as described in
UH19-22], and because the "Safety sheet" or document in H17 said something
about me having to do what ad. seg. guards tell me, and because in 2010 when
I was assigned to work in the ad. seg. kitchen I seen ad. seg. SSIs help
floor officers feed ad. seg. inmates [as described in 1TH19-22], and because
floor officers would tell me to help them feed ad. seg. inmates---- I had to
help the floor officer feed the ad. seg. inmates.
■ 40. Additionally, there was never any posted rule prohibiting SSIs from helping
floor officers feed ad. seg. inmates.
41. And neither I, nor any other SSI that I know of, ever received any disci­
plinary case for helping a floor officer feed ad. seg. inmates in ad. seg.
-7-

r

42. Endsley had just begun working in Michael Unit's ad. seg. building about a
few weeks before Sanchez stabbed me.
43. Ends ley fed as described in A1T19-21 because, that is how he [and other ad.
seg. guards on Michael Unit/ and throughout TDCJ-CID's Region Two, and
throughout all TDCJ-CID'and TDCJ] are trained to, and/or are given tacit
authorization to, feed the ad. seg. inmates-—and this caused each super­
visory defendant's failure to protect me from the attack/assault by Sanchez.
44. I was not the first individual to ever get assaulted/attacked in ad. seg.
by an ad. seg. inmate through an ad. seg. inmate's opened food tray slot
door on the Michael Unit, or TDGJ-CID's Region Two prison units, or on
prison units throughout TDCJ-CID,. or TDCJ, or. the.entire prison system of
.

this country----and each defendant, knew this before- 1^was attacked by Sanchez.

45. Each defendant realized/knew that, in ad. seg • / ad. seg. inmates attacking/
assaulting anyone through ad.: seg. gnmates' opened food slot doors posed
excessive risk of harm to me because it is long-standing, pervasive, welldocumented, or expressly noted by.prison officials ;in .the past----whether
it's officials .from Michael-. Unit, or TDCJ-CID's. Region-Two, or TDQJ-CJD, or
TDCJ, or from jail and prison systems all over this country----that people
are known to get assaulted/attacked by;ad. seg. inmates through ad. seg.
inmates' food slot doors whenever an ad. seg. inmate's cell's food slot door
is opened.
46. Sanchez was in Michael Unit's ad. seg. after being transferred there after
he stabbed an.officer in the eye through his opened food slot door when
Sanchez was in ad. seg. on another TDCJ-CID Unit [i.e. the Telford Unit in
Mew Boston, Texas].
47. Each defendant realized/knew that, in ad. seg., ad. seg. inmates attacking/
assaulting anyone through ad. seg. inmates' opened food slot doors posed
-8-

\

excessive risk of harm to me because during ad. seg. cell searches, it is
longstanding, pervasive, well-documented, or expressly noted by prison • '
officials in the past----whether it's officials from Michael Unit, or TDCJCID's Region Two, or TDCJ-CID, or TDCJ, or from jail and prison systems all
over this country----that weapons, including spears like the one Sanchez
used on me, are found inside ad- seg. cells. ■48. Each defendant knew about the facts in tfl45 and 47,-but within their
respective areas of responsibility, was deliberately indifferent to, or
callously disregarded, such serious/excessive risk to my safety when they>
each, within their respective areas of responsibility, failed to make and/or
take adequately reasonable measures^----which includes having such adequate
reasonable measures adequately enforced by each defendant---- to guarantee
that I [c]ould not be, and/or would not be, attacked/assaulted by any inmate
confined in ad. seg. while I was assigned to work in ad. seg.
49. Defendant Ends ley, having already known/realized the facts in *EiI45 and 47
before Sanchez stabbed'mer is actually responsible for Sanchez stabbing- me
while I helped Endsley feed Sanchez because Endsley failed to follow and
enforce TDCJ's Administrative Directive (ADj-03.50 (2013)(i.e. TDCJ's Ad.
Seg. Plan § IV.F Meals (2012)) which says:1 "Safety precautions shall be
followed in serving meals" [to ad. seg. inmates] "pursuant to PO-07.006,
'Administrative Segregation Officer.

f 9*

50. Because for years floor officers——on Michael Unit, on umits all throughout
TDCJ-CID's Region Two, and on units all throughout TDCJ-CID and TDCJ—fed
like Endsley fed when Sanchez stabbed me [as described in MI19-26], each
supervisory defendant is also actually responsible for Sanchez stabbing me
[while I helped Endsley feed Sanchez] because each supervisory defendant,
within their respective areas of responsibility, failed to adequately
-9--

supervise their respective subordinate^s) to ensure that AD-03.50 (i.e. Ad.
Seg. Plan § IV.F (Meals)) was being fully enforced on every shift on the.
Michael Unit, as well as on every shift on every unit throughout TDCJ-CID's
Region Two, the TDCJ-CID, and TDCJ.
51. Each supervisory defendant is also actually responsible for Sanchez stabbing
me [while I helped Endsley feed Sanchez] because each supervisory defendant,
within their .respective areas of responsibility, failed to ensure that their
respective subordinate(s) properly trained floor officers to take the "Safe­
ty precautions,v in AD-03.50's Ad. Seg. Plan § IV.F (Meals), and the super­
visory defendants failed, to ensure [within their respective areas of respon­
sibility] that such proper training was done on every shift on the Michael
Unit, as well as on every shift on the units throughout TDCJ-CID's Region
Two, the TDCJ-CID, and TDCJ.
52. 1 was stabbed in the neck by Sanchez because each defendant, within their
respective areas of responsibility, was either plainly incompetent to, or
knowingly failed to, perform their federal constitutional duty to protect
me from attacks by any ad. seg. inmate while I worked in ad. seg as an SSI.
IVPlaintiff invokes this Court's
supplemental jurisdiction
under 28 U.S.C. § 1367
53. At the time Sanchez stabbeo me, all of the Derendants were TDCJ employees
and are therefore liable to damages pursuant to TEXAS GOVERNMENT CODE §
497.096 because each Defendant, within their respective areas of responsi­
bility, negligently implemented AD-03.50's Ad. Seg. Plan § IV.F (Meals) with
intentional, wilful or wanton negligence, or it was performed with conscious
indifference or reckless disregard for my safety and this caused Sanchez to

(5

stab me.

-10-

54- Each Defendant is liable under § 497.096 for negligent implementation of any
other TDCJ policy critcal to ensuring prisoner safety [that Torres is not
aware of at this time] because it was done with intentional, wilful or wan­
ton negligence, or performed with conscious indifference or reckless dis­
regard, for my safety and this caused Sanchez to stab me.
55. Within their respective areas of responsibility, each Defendant's said acts
or omissions rose to the level of gross negligence and this too caused Sanchez

I

to stab me.

V.
Legal Claims
56. Torres re-alleges and incorporates by reference UU1 through 55.
57. The failure to protect violated Torres' rights and constituted cruel and
unusual punishment under the Eighth Amendment to the United States Consti­
tution, and it was gross negligence under Texas law.
58. Torres has no plain, adequate or complete remedy at law to redress the wrongs
described herein. Torres has suffered, and continues to suffer, physical,
mental and emotional injury due to Defendants' conduct.
VI.
Prayer For Relief
WHEREFORE, Torres respectfully prays that this Court enter judgment grant­
ing Torres:
59. A declaration that the acts and omissions described herein violated Torres'
rights under the Constitution and laws' of the United States and constituted
gross negligence under Texas law,
60. Nominal damages in the amount of $10,000 (Ten Thousand $US Dollars) against
each Defendant, jointly and severally, or to be determined by the jury.
61. Compensatory damages in the amount of $294,000 (Two Hundred and Ninety-Four
Thousand $US Dollars) against each Defendant, jointly and severally, or to
-11-

r
*

62. Punitive damages in the amount of $196,000 (One Hundred and Ninety-Six
Thousand $US Dollars) against each Defendant, jointly and severally, or to
be determined by the jury.
63. Alternatively, Torres requests "presumed damages" that may also be deter­
mined by the jury.
64. A jury trial on*all issues triable by jury.
65. Plaintiff's "costs in this suit.
66. Plaintiff requests to recover pre-judgment and post-judgment interest, and
any other relief, both special and general, to which Torres may be justly
entitled.
67. Any additional relief this Court deems just, proper and equitable.
Date:

January 24, 2018

Respectfully submitted,

Christopher Torres, a/k/a
Christopher Muhammad
#1142645
WYNNE Unit
810 FM 2821
Huntsville, TX 77349
Plaintiff Pro Se
VERIFICATION
1 have read the foregoing proposed amended complaint and hereby verify that
the matters alleged therein are true, except as to matters alleged on informa­
tion and belief, and, as to those,. I believe them to be true. I certify under
penalty of perjury that the foregoing is true and correct.
Execuceo at Huntsville, Texas on January 24, 2018.

Christopher Torres, a/k/a
Christopher Muhammad

-12-

r

p

CERTIFICATE OF SERVICE
1, Christopher Torres, a/k/a Christopher Muhammad, hereby declare and
certify, under penalty of perjury, that on January 24, 2018 a copy of this
amended complaint was served upon the Defendants by placing a copy of same in
the U.S. mailbox on the WYNNE Unit, postage pre-paid, and addressed to:
P. Trent Peroyea,
Assistant Attorney General of Texas
P.0. Box 12548
Austin, TX 78711-2548

Christopher Torres, a/k/a
Christopher Muhammad

-13-

«
t

APPENDIX
H
U.S. District Court's denial
on RULE 59(e) motion

..■4

Case 6:17-cv-00196-RC-JDL Document 42 Filed 04/04/19 Page 1 of 8 PagelD #: 288

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
CHRISTOPHER TORRES

§

v.

§

BRAD LIVINGSTON, ET AL.

§

CIVIL ACTION NO. 6:17cvl96

ORDER DENYING PLAINTIFF’S MOTION TO ALTER OR AMEND THE JUDGMENT
The Plaintiff Christopher Torres, proceeding pro se, filed this civil rights lawsuit under 42
U.S.C. §1983 complaining of alleged deprivations of his constitutional rights. As Defendants,
Torres named former TDCJ-CID Director William Stephens, Regional Director Kelvin Scott,
Warden Edgar Baker, Major Todd Funai, Lt. Frances Sims, and Officer Jonathan Endsley.
The Defendants filed a Fed. R. Civ. P. 12(b)(6) motion to dismiss, which was granted and
the lawsuit was dismissed. Torres filed a timely motion to alter or amend the judgment pursuant to
Fed. R. Civ. P. 59(e).
I. Background
Torres complained that on June 27,2015, he was a staff support inmate (SSI) helping Officer
Endsley feed D Pod in the Michael Unit administrative segregation wing. Officer Endsley would
go down the row and open every cell food slot door, wait for Torres to feed the inmates, and go back
and close the doors. Torres stated that it was common practice for inmates to ask that items to be
passed from cell to cell and for the officer to tell the inmate to “have the SSI do it for you.”
After he and Officer Endsley fed One Row, Torres stated that they went on to Two Row.
Endsley opened the food slot door of an inmate named Angel Sanchez. Sanchez reached out through
the food slot door and pointed to some pictures on the floor in front of his cell and asked Officer
Endsley to get them for him. Endsley replied “the SSI will do it for you. Ask him.”

1

Case 6:17-cv-00196-RC-JDL Document 42 Filed 04/04/19 Page 2 of 8 PagelD #: 289

Torres states that when he handed Sanchez his food tray, Sanchez asked him to get the
pictures. He bent down to get the pictures off the floor and Sanchez stabbed him in the neck with
what appeared to be a two foot long pole with a barbed nail tip.
In his lawsuit, Torres contended that the TDCJ supervisory officials knew of the risks that
such an assault took place but failed to take measures to guarantee that Torres could not be assaulted
by any prisoner confined in administrative segregation while he worked there. He also complained
that the supervisors failed to train and supervise their subordinates to ensure that the TDCJ
Administrative Segregation Plan was followed.
Torres further asserted that Officer Endsley failed to follow the Administrative Segregation
Plan, which requires that safety precautions be followed in serving meals to administratively
segregated prisoners. He claimed that he was not the first person to be assaulted through a food tray
slot in administrative segregation, and stated that Sanchez had been sent to administrative
segregation at the Michael Unit because he had stabbed a guard through a food slot at the Telford
Unit, although he does not substantiate this assertion. Torres maintained that he was never warned
he could be attacked through a food slot when the slot was open. There were no posted rules
prohibiting SSI’s from helping the floor officer feed inmates.
The Defendants filed a motion to dismiss arguing that Officer Endsley was unaware that
Torres was in any kind of danger when he bent to pick up the pictures from the floor. Even if
Sanchez had previously carried out a stabbing at another unit, the Defendants stated that Torres
offered nothing to show that Officer Endsley was aware of this.
The Defendants contended that while prison officials like Officer Endsley should try to
prevent these types of incidents, they cannot prevent all of them. They noted that Torres never told
Officer Endsley that he felt unsafe.
The Defendants further maintained that Torres did not show any personal involvement by
the supervisory officials and that the mere knowledge that prison is a dangerous place is not
sufficient to demonstrate particularized knowledge of a substantial risk of serious harm. The
2

Case 6:17-cv-00196-RC-JDL Document 42 Filed 04/04/19

Page 3 of 8 PagelD #: 290

Defendants also asserted that Torres’ state law claims lacked merit because the Texas Tort Claims
Act provided for recovery against governmental units, not individuals employed by the State, and
that claims against them in their official capacities are barred by the Eleventh Amendment.
In his response to the motion to dismiss, Torres asserted the Defendants failed to take
reasonable measures to protect him from assault. He contended the supervisory Defendants failed
to train and supervise their subordinates and that he was never warned that he could be assaulted
through a food slot.
Torres argued that Officer Endsley ordering him to help feed the inmates placed him within
range of being assaulted and that Endsley telling him to pass items for the inmates was not a
reasonable measure to ensure his safety. He stated that there was an indicator above Sanchez’s cell
door saying “SA,” for “staff assaultive,” which he claimed was something which could have caused
Endsley to foresee that Sanchez might assault Torres. He contended that assaults through food slots
are so pervasive as to amount to a sufficiently imminent danger of harm.
II. The Report of the Magistrate Judge
After review of the pleadings, the Magistrate Judge issued a Report recommending that the
lawsuit be dismissed. The Magistrate Judge set out the standards applicable to motions to dismiss
and stated a prison official is deliberately indifferent if he has actual knowledge of an excessive risk
to inmate health or safety and disregards that risk. The official knows of the risk only if he is aware
of facts from which he can infer the existence of a substantial risk of harm and he in fact draws the
inference. Farmer v. Brennan, 511 U.S. 825, 839-40, 114 S.Ct. 1970, 128 L.Ed.2d 811 (1994).
The Magistrate Judge further stated that the fact that other prisoners may have carried out
assaults through the food slot doors, in which none of the named Defendants had any personal
involvement, did not show that the problem was so pervasive that the Defendants must have known
of the danger. Adames v. Perez, 331 F.3d508, 513 (5th Cir. 2003). The Magistrate Judge concluded
that Torres failed to demonstrate that any failure by Officer Endsley to follow unspecified “safety
procedures” amounted to deliberate indifference rather than simply negligence because Torres
3

Case 6:17-cv-00196-RC-JDL Document 42 Filed 04/04/19 Page 4 of 8 PagelD #: 291

offered nothing to suggest that Endsley had actual knowledge of but disregarded a substantial risk
to his health or safety.
The fact an assault occurred is not itself proof of inadequacy of training or that the
appropriate safety precautions were not followed. Torres’ pleadings failed to adequately allege
either an actual failure to train or supervise, much less that any such failure amounted to deliberate
indifference. With regard to the state law claims, the Magistrate Judge determined that all of Torres’
federal claims were subject to dismissal, and the district court should decline to exercise
supplemental jurisdiction over the state law claims. The Magistrate Judge therefore recommended
that the lawsuit be dismissed with prejudice for failure to state a claim as to the federal law claims
and without prejudice to proceeding in state court as to the state law claims.
III. The Objections and Final Judgment
In his objections, Torres argued that it was “long-standing, pervasive, and well-documented”
that inmates have weapons in their cells and attack people through the food slots, but he offered
nothing to substantiate this conclusion. The Magistrate Judge’s research did not turn up a single
other case in which a prisoner brought suit complaining that another prisoner had assaulted him
through the food slot. While Torres cited three cases, none of these were from the State of Texas,
nor did they involve prisoners assaulting other prisoners or guards through the food slot.
The Magistrate Judge also determined that Torres failed to show that such assaults were a
long-standing and pervasive problem of which the prison officials must have been aware, and that
he likewise failed to show that any failure to warn him about attacks from other inmates amounted
to deliberate indifference rather than negligence or carelessness. Torres stated that he saw Sanchez
put his whole arm out of the food slot and thus was necessarily aware that Sanchez could reach out
of the food slot if he wished.
Although Torres contended that there was no posted rule prohibiting support service inmates
such as himself from handing out food trays to inmates in segregation or from pouring drinks in their
cups, he offered nothing to suggest that these activities were in fact prohibited or that the failure to
4

Case 6:17-cv-00196-RC-JDL Document 42 Filed 04/04/19 Page 5 of 8 PagelD #: 292

have such a prohibition amounted to deliberate indifference. He argued that although he faults the
Defendants for failing to implement “reasonable measures” to ensure he would not be assaulted, he
should not have to identify what these “reasonable measures” might be.
The District Court overruled Torres’ objections and entered final judgment dismissing the
lawsuit, concluding that Torres’ well-pleaded factual allegations, even taken as true, did not set out
factual content allowing the Court to draw the reasonable inference that the Defendants were liable
for the harm alleged and which raised the right to relief above the speculative level.
IV. The Motion to Alter or Amend the Judgment
After the final judgment was entered, Torres filed a motion to alter or amend the judgment
under Fed. R. Civ. P. 59. In this motion, Torres states that he has new evidence in the form of an
affidavit from an inmate named Daniel Reyna, who states that over the course of 16 years, from
1995 to 2011, he was housed in administrative segregation at the Allred Unit, the Telford Unit, and
the Eastham Unit. During this time, Reyna claims that he witnessed “with my own eyes” many
assaults taking place through the food slots, at least one a week and sometimes twice a day at the
Eastham and Telford Units. Torres argues that this affidavit shows that the danger of assaults
through the food slots is so long-standing and pervasive that such assaults are long-standing,
pervasive, well-documented, or expressly noted by prison officials unit-wide, region-wide, systemwide, and nation-wide.
A review of Reyna’s affidavit shows that he claims to have witnessed at least one attack per
week through a food slot over a 16-year period, alleging that sometimes the attacks were as often
as two per day. This means that at the rate of one per week, Reyna would himself have witnessed
over 800 assaults over this time period, likely closer to 1,000 when the weeks of multiple assaults
per day which he claimed to have seen are added in.
Reyna’s affidavit maintains that these were assaults which he witnessed personally, meaning
they must have occurred in the section in which he was confined, on the row in which he was
housed. Torres’ original complaint states that the administrative segregation section at the Michael

5

Case 6:17-cv-00196-RC-JDL Document 42 Filed 04/04/19 Page 6 of 8 PagelD #: 293

Unit has six pods, each of which has six sections which contain two rows each, for a total of 72 rows
in administrative segregation. If assaults occurred at the Michael Unit at the same rate which Reyna
claims he observed them elsewhere, being one per week per row, the Michael Unit administrative
segregation area alone would have experienced over 59,000 assaults during the 16-year period
covered by Reyna’s affidavit; however, as the Magistrate Judge observed, research reveals not a
single case in the State of Texas, other than the present one, in which a prisoner filed suit alleging
he was assaulted by another prisoner through the food slot.
Torres also argues that the Court failed to apply the correct legal standard set out in Farmer.
He asserts that the supervisory defendants each knew of the risk of assault through the food slots but
tacitly authorized the floor officers to have inmates help the officers feed segregated prisoners and
pass items. Torres argues that the Court should have “drawn on its common sense” and reasoned
that because each defendant knew that the possibility of an assault through the food slot existed and
failed to take reasonable measures to ensure that Torres could not be attacked during feeding time
or while he was working in segregation, then each defendant must be liable for failing to protect
Torres from assault.
Torres contends that the fact that Officer Endsley opened the food slots “quickly” shows that
the officer must have known of the danger of assault but took no action. He complains that none
of the supervisory defendants did anything to discourage support service inmates from helping floor
officers feed segregated prisoners. Torres states that the fact that prison officials know that weapons
have been found in prisoners’ cells demonstrates their knowledge of the risk and their disregard of
this risk, although he concedes that he approached Sanchez’s cell and bent over after seeing Sanchez
reach his whole arm out of the cell slot, which was the immediate action placing him in range of
assault. He asks that his case be reopened and that the Court change its ruling on the merits.
IV. Discussion
The Fifth Circuit has stated that relief under Rule 59(e) is appropriate where there has been
an intervening change in controlling law, the movant presents newly discovered evidence which was
6

Case 6:17-cv-00196-RC-JDL Document 42 Filed 04/04/19 Page 7 of 8 PagelD #: 294

previously unavailable, or to correct a manifest error of law or fact. Schiller v. Physicians Res. Grp.
Inc., 342 F.3d 563, 567 (5th Cir.2003). A Rule 59(e) motion cannot be used to raise arguments
could and should have been made before the judgment issued. Rosenzweigv. Azurix Corp., 332 F.3d
854, 864 (5th Cir. 2003).
A motion to alter or amend the judgment based on the discovery of new evidence should be
granted only if: (1) the facts discovered are of such a nature that they would probably change the
outcome; (2) the facts alleged are actually newly discovered and could not have been discovered
earlier by proper diligence; and (3) the facts are not merely cumulative or impeaching. Infusion Res.
Inc. v. Minimed, Inc., 351 F.3d 688, 696-97 (5th Cir. 2003).
The requirement that the facts be of such a nature that they would probably change the
outcome necessarily includes a requirement that the newly discovered evidence must be credible.
See, e.g., Daniels v. Pipefitters Association Local Union No. 597, 983 F.2d 800, 803 (7th Cir. 1993)
(holding in the context of a Rule 60(b)(2) motion that district courts may consider the credibility of
evidence before granting motions for reconsideration because such motions are decided by judges
rather than juries and “to hold otherwise would mean that the district court would have to order a
new trial no matter how incredible the evidence.”)
Reyna’s affidavit, attesting to witnessing close to if not over a thousand assaults on other
units carried out through cell food slots, none of which formed the basis for a lawsuit in federal
court, appears to have little credibility and thus cannot form the basis for alteration or amendment
of the judgment of dismissal. Even were the affidavit credible, however, it does not rise to the level
of requiring that Rule 59 relief be granted. The affidavit demonstrates little more than the wellknown fact that, as Justice Thomas observed, “prisons are necessarily dangerous places; they house
society’s most antisocial and violent people in close proximity to one another. Regrettably, some
level of brutality and sexual aggression among [prisoners] is inevitable no matter what the guards

7

Case 6:17-cv-00196-RC-JDL Document 42 Filed 04/04/19 Page 8 of 8 PagelD #: 295
it

do ... unless all prisoners are locked in their cells 24 hours a day and sedated.” Farmer, 511 U.S.
at 858-59 (Thomas, J., concurring).1
The fact of other assaults in which the Defendants were not involved and which, according
to Reyna’s affidavit, occurred at other units and not the Michael Unit, does not show that the
Defendants were necessarily aware of a specific danger posed to Torres. Adames, 331 F.3d at 513.
A self-serving affidavit which strains the bounds of credulity does not show that the danger of
Torres being assaulted through the food slot was so obvious that the Defendants were deliberately
indifferent by failing to take some unspecified action to protect Torres from harm in the normal
course of his day’s work. He has not shown that the supervisory defendants were deliberately
indifferent to his safety by failing to discourage support service inmates from performing normal
duties by assisting in the feeding of segregated prisoners. Nor has he shown that the district court
applied incorrect legal standards. Torres’ motion to alter or amend the judgment has not met the
standards of Rule 59(e) and it is accordingly
ORDERED that the Plaintiffs motion to alter or amend the judgment (docket no. 38) is
DENIED.

So Ordered and Signed
Apr 4, 2019

Ron Clark, Senior District Judge

)ln addition, if such assaults were as widespread and commonplace as Reyna’s affidavit
claims, this fact would most likely be universally known by every prisoner incarcerated in TDCJ,
in which case Torres has not shown that the purportedly newly discovered evidence was previously
unavailable. Furthermore, if these assaults were widespread and universally known, Torres does not
"explain why Officer Endsley would have been deliberately indifferent by failing to explain it to him,
nor he had so little heed for his own safety as to go over to the cell door and bend over next to the
food slot without watching it, rather than gathering up the pictures in such a way as to observe the
inmate in the cell and protect himself from possible assault.

8

